Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
April 1, 2008 – September 30, 2008
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the
GSA OIG and discussed in this semiannual report.

CHALLENGES                BRIEF DESCRIPTION OF CHALLENGE                               PAGE

ACQUISITION               GSA’s procurement organization awards and administers 2
PROGRAMS                  government-wide contracts worth $40 to $50 billion. With
                          growing programs and shrinking numbers of qualified
                          acquisition personnel, attention to important fundamentals,
                          such as ensuring competition, meaningful price analysis,
                          and implementation of statutory and regulatory
                          compliance-type requirements has diminished.

CONTRACT                  GSA’s multibillion-dollar acquisition programs have       5
MANAGEMENT                expanded rapidly in terms of sales, variety, and the
                          complexity of the procurements performed. While many
                          GSA contracts are well-crafted and properly administered,
                          we find a continuing need for management attention
                          to enhance economy and efficiency in the Agency’s
                          contracts.

INFORMATION               Technology applications have increased exponentially         7
TECHNOLOGY                as “E-Gov” is used to better manage operations and
                          interface with the public, but complex integration and
                          security issues exist.

MANAGEMENT                Management controls have been streamlined, resulting         14
CONTROLS                  in fewer and broader controls, making it essential that
                          the remaining controls be emphasized and consistently
                          followed. The need for strong internal controls underlies
                          several of the other management challenges.

PROTECTION OF             GSA is responsible for protecting the life and safety of     26
FEDERAL FACILITIES        employees and public visitors in Federal buildings. The
AND PERSONNEL             increased risks from terrorism have greatly expanded the
                          range of vulnerabilities. A broadly integrated security
                          program is required.

HUMAN CAPITAL             GSA has an aging workforce and is facing significant loss    No
                          of institutional knowledge due to retirements, including a   Reports
                          loss of key management staff over the past year. Better      This
                          recruitment and training programs are needed to develop      Period
                          the 21st century workforce.

STEWARDSHIP OF            GSA is being challenged to provide quality space to          No
FEDERAL REAL              Federal agencies using an aging, deteriorating inventory     Reports
PROPERTY                  of buildings and facing critical budgetary limitations in    This
                          its modernization program.                                   Period
                              Foreword



I am pleased to provide this report to the people of the United States and their elected
representatives in Congress. The Office of Inspector General (OIG) at GSA has been working
successfully to identify waste, fraud, and abuse in the programs and operations of GSA.

For the period covered by this semiannual report (SAR), the OIG identified over $359 million
as funds recommended for better use and questioned costs. The OIG issued 66 audit reports.
We also made 207 referrals for criminal prosecution, civil litigation, and administrative action—
activities valuable in their own right, as well as for their deterrent effect. In this reporting period
we achieved savings from management decisions on financial recommendations, and from
civil settlements, and investigative recoveries totalling over $345 million. Those results
provided to the American taxpayer a return of many times the cost of OIG operations.

In the recently completed Fiscal Year (FY) 2008, the GSA-OIG achieved actual taxpayer
savings of almost $637 million, about $12 in savings for each dollar invested in the
operation of the OIG. The OIG also provided audit recommendations to GSA on
questioned costs and recommended better use of funds totaling over $601 million during
FY 2008 and secured 102 indictments and criminal informations in relation to GSA
employees and contractors.

This reporting period, the GSA OIG’s new Forensic Auditing Unit is up and running. The
Unit utilizes the forensic auditing approaches to better target the work of Inspectors
General and to link this powerful technique for identification of fraud, waste, and abuse
to successful prosecutions of offenders. We expect that this approach, which also brings
together important skills across the OIG in concentrated ways, will highlight the value
of increased teamwork in pursuit of our mandate to protect taxpayer dollars. The OIG
also helped to organize and participated in the first National Procurement Fraud
Conference in Richmond, VA in September 2008. The conference featured a strong
forensic auditing component, and was a follow up to the first government-wide Forensic
Auditing Forum, which the GSA OIG convened in early 2008.

We continue to work with other OIGs and law enforcement agencies as part of the National
Procurement Fraud Task Force (NPFTF) of which I serve as Vice Chair. As Co-Chair of
the Legislative Committee, I helped to coordinate efforts to implement recommendations
of the Task Force’s 2007 white paper on procurement legislation, features of which have
appeared in the “Close the Contractor Fraud Loophole Act of 2008” (the FAR amendment)
and the “IG Reform Act of 2008” (electronic evidence and PFCRA extension) signed
recently by the President. The OIG also participates with the United States Attorney’s
offices across the country in regional procurement fraud working groups. As we carry out
all our duties, we endeavor to assist GSA to accomplish its important mission in an efficient
manner and to observe all applicable requirements.

I continue to be gratified by the consistent record of accomplishment of OIG employees
and wish to commend them for their continued professionalism, dedication, and
performance in fulfilling their oaths to uphold the law. I also wish to recognize the
continued, strong support of the Congress, OMB, and employees throughout GSA for
the efforts of the OIG.



Brian D. Miller
Inspector General
September 30, 2008
                                                                  April 1, 2008 – September 30, 2008 i
          Table of Contents

                                                                                               Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v

Fiscal Year 2008 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . xiv

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

   Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

   Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

   Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

   Management Controls. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

   Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . . 26

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . . 29

Governmentwide Policy Activities. . . . . . . . . . . . . . . . . . . . . . . . . . . 37

Professional Assistance Services. . . . . . . . . . . . . . . . . . . . . . . . . . . 40

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . . 42

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . . . 49

Appendix II – Audit Report Register . . . . . . . . . . . . . . . . . . . . . . . . . 53

Appendix III – Audit Reports over 12 Months Old, Final Agency
  Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60

Appendix IV – Government Contractor Audit Findings . . . . . . . . . . . 66

Appendix V – Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67

Appendix VI – Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . 68
Appendix VII – OIG Offices and Key Officials. . . . . . . . . . . . . . . . . . 69




This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral


                                                                April 1, 2008 – September 30, 2008 iii
                      Summary of OIG Performance

                       April 1, 2008 – September 30, 2008

OIG Accomplishments    Total financial recommendations                               $359,652,851

                       These include:

                       • Recommendations that funds be put to better use             $355,064,515

                       • Questioned costs                                            $   4,588,336

                       Audit reports issued                                                 66

                       Referrals for criminal prosecution, civil
                       litigation, & administrative action                                207

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                    $345,044,686

                       Indictments and informations on criminal referrals                   39

                       Cases accepted for criminal prosecution                              42

                       Cases accepted for civil action                                       4

                       Successful criminal prosecutions                                     45

                       Civil settlements                                                     4

                       Contractors/individuals suspended and debarred                     110

                       Employee actions taken on administrative referrals
                       involving GSA employees                                              15




                                                                    April 1, 2008 – September 30, 2008 v
                                         Fiscal Year 2008 Results



                                       During Fiscal Year 2008, OIG activities resulted in:

                                       • Over $601.1 million in recommendations that funds be put to better use
                                         and in questioned costs. If adopted, these recommendations ultimately
                                         result in savings for the taxpayer.

                                       • 139 audit reports that assisted management in improving the efficiency and
                                         effectiveness of Agency operations.

                                       • Almost $601.2 million in management decisions agreeing with audit
                                         recommendations; $36.3 million in criminal, civil, administrative, and other
                                         recoveries.

                                       • 236 new investigations opened and 159 cases closed.

                                       • 82 case referrals (127 subjects) accepted for criminal prosecution and
                                         13 case referrals (21 subjects) accepted for civil litigation.

                                       • 102 criminal indictments/informations and 97 successful prosecutions on
                                         criminal matters referred.

                                       • 10 civil settlements.

                                       • 42 employee actions taken on administrative referrals involving GSA
                                         employees.

                                       • 86 contractor/individual suspensions and 71 contractor/individual
                                         debarments.

                                       • 355 legislative matters and 14 regulations and directives reviewed.

                                       • 2,808 Hotline calls and letters received of which 99 were referred for
                                         criminal or civil investigations, 83 were referred to other agencies for follow
                                         up, and 236 were submitted to GSA for review and appropriate
                                         administrative actions.




vi Semiannual Report to the Congress
     Executive Summary



During this semiannual period, the OIG continued to direct its auditing and
investigative resources toward what we have identified as the major
management challenges facing GSA. We conducted audit reviews and
investigations to ensure the integrity of the Agency’s financial statements,
programs, and operations, and to ensure that the taxpayers’ interests were
being protected. The OIG also continued to initiate actions to prevent fraud,
waste, and abuse, and to promote economy and efficiency throughout GSA.

The OIG’s resources have been directed specifically toward conducting
preaward, financial, and programmatic audits; management control
assessments; contract reviews; investigations of fraud, abuse, and related
actions by GSA employees and government contractors; litigation support in
civil fraud actions, enforcement actions, criminal prosecutions, contract
claims, and administrative actions, all in an effort to maintain the integrity of
GSA programs.

Management Challenges
The OIG continued to strive to provide the high level of quality in its reviews
and recommendations for which it is known, and which it believes necessary
in order for GSA to continue leading the government in contracts and
procurements. During this semiannual period, the focus has been on
preaward contract reviews, acquisition programs, contract management,
management controls, protection of Federal facilities and personnel,
information technology (IT), civil actions, and criminal actions. The following
are significant reviews and cases that the OIG has identified as major issues
facing GSA.

Acquisition Programs
Significant Preaward Reviews and Other Audits. The OIG’s preaward
review program provides information to contracting officers (CO) for use in
negotiating contracts. This period, the OIG performed preaward reviews of
41 contracts with an estimated value of $5.5 billion. We recommended that
more than $355 million of funds be put to better use. During this reporting
period, management decisions were made on 30 of the preaward reports
issued during the last year, which recommended that over $346 million of
funds be put to better use. Management agreed with 93.1 percent of the
recommended savings (page 2).

Survey of the Federal Acquisition Service (FAS) Organization. On
October 6, 2006, Congress enacted Public Law 109-313, the General
Services Administration Modernization Act, which established The Federal
Acquisition Service (FAS). The FAS is a consolidation of what were
previously the GSA’s Federal Technology Service and Federal Supply
Service. Our survey objective was to determine whether the FAS organization
has achieved the benefits and guiding principles it was designed to
accomplish. We found that FAS has had a number of successes with regard
to its development. Although we recognize that the transformational change
FAS has undertaken will take years to implement fully, we do believe that the

                                              April 1, 2008 – September 30, 2008 vii
                                              Executive Summary



                                         organization’s progress should be monitored carefully by management to
                                         address the existing and future challenges and ensure that FAS delivers
                                         excellent acquisition services and the best value for the government and the
                                         taxpayer (page 3).

                                         Contract Management
                                         Improving the FedRooms Program Based On Benchmarking. Our
                                         February 2008 review determined that usage of FedRooms was low and
                                         recommended that the Commissioner of FAS develop a business plan for
                                         FedRooms. The objective for the current follow-up review was to determine
                                         how FAS can improve FedRooms to gain wider participation by hotels and
                                         travelers. In order to increase FedRooms usage among Government travelers
                                         and thereby strengthen the Government’s leverage in the marketplace, our
                                         benchmark partners advised and we found that several steps must be taken,
                                         including: implement policy language that will strongly influence Government
                                         travelers to use the lodging program; effectively communicate with travelers
                                         when non-use of the program is detected; enhance the FedRooms.com on-
                                         line booking tool and travel authorization process; consider program funding
                                         alternatives; and retain ownership rights to the program website (page 5).

                                         Information Technology (IT)
                                         Work Remains in Implementing a Fully Integrated Pegasys Financial
                                         Management System. The objective of this audit was to gather information
                                         on the status of Pegasys and evaluate risks and potential improvements in
                                         two main areas: (1) development and maintenance of an integrated accounting
                                         and financial management system, and (2) system operations and response
                                         to management and user needs. GSA’s fragmented financial systems
                                         environment, with duplicate systems and nonstandard business processes,
                                         has complicated and delayed OCFO efforts to migrate the remaining
                                         functionality of GSA’s previous accounting system, integrate feeder systems,
                                         and meet strategic goals. We recommended that the Chief Financial Officer
                                         develop a detailed plan for migration of remaining functionality of the previous
                                         system; review whether Pegasys is meeting Agency and customer needs; and
                                         improve security and privacy controls for sensitive Pegasys data (page 7).

                                         Access Controls Could Help Protect Personnel Information within the
                                         Comprehensive Human Resources Integrated System (CHRIS). This
                                         audit of the Comprehensive Human Resources Integrated System built on
                                         the results of previous reviews and focused primarily on whether specific
                                         management, operational, and technical controls have been implemented to
                                         appropriately limit access to sensitive personnel information. Our audit
                                         identified several areas where improved access controls for CHRIS could
                                         better protect personnel information, including by helping to enforce
                                         requirements that the system’s users be given no more access than
                                         necessary to perform their official duties. We also recommended that the
                                         GSA Chief Human Capital Officer address CHRIS technical vulnerabilities
                                         and ensure all known vulnerabilities are promptly recorded and mitigated
                                         (page 9).

viii Semiannual Report to the Congress
     Executive Summary



FY 2008 Office of Inspector General FISMA Review of GSA’s Information
Technology Security Program. The objectives of this audit were to assess
the effectiveness of controls over GSA information systems and data and to
address specific questions and reporting requirements identified by OMB.
We reviewed four systems, including one contractor system, to assess
implementation of GSA’s IT Security Program. Deficiencies in the following
areas adversely impact the effectiveness of GSA’s IT Security Program:
1) contractor oversight, 2) protection of sensitive information, 3) security
of publicly facing websites, and 4) controls for minor applications. We
recommended that the Chief Information Officer develop standard
requirements for IT service contracts that promote compliance with GSA IT
Security Policy; ensure consistent background investigation requirements for
contractor personnel; implement encryption of mobile devices; and ensure
that all of GSA’s publicly facing web applications support and implement
sufficient encryption (page 10).

Management Controls
Audit of Reimbursable Work Authorizations. The primary objectives of
our review were to determine whether 1) Reimbursable Work Authorizations
(RWAs) are properly accounted for and 2) controls over RWAs are adequate
and effective. In many cases, the RWAs did not have a documented scope of
work or an underlying estimate for the work when PBS accepted them. This
raises concerns about the bona fide need of the client. Also, PBS did not
always follow the appropriate procurement regulations when contracting for
the repairs and alterations. We recommended that the Public Buildings
Service implement and adhere to the controls recommended by the national
RWA project management team, and ensure that the risks identified in this
report are accounted for in the team’s reengineered project management
process (page 14).

Limited Review of Alliant and Alliant Small Business. The objectives
of this review were (1) to determine to what extent FAS followed applicable
laws, regulations, and guidance in awarding and administering a contract to
interview the previous customers of offerors in the Alliant and Alliant Small
Business solicitation and (2) to determine how FAS ensured that the
interviewing contractor had no conflict of interest. We determined that FAS
did not undertake sufficient acquisition planning, that FAS selected the
contractor that submitted the highest-priced proposal (36% higher than the
next proposal) without analyzing whether the benefits of the higher priced
proposal merited the additional cost, and that FAS did not analyze the level of
effort and labor mix to determine whether the total price was fair and
reasonable. Additionally, we determined that FAS did not comply with proper
contract administration procedures relative to the inspection and acceptance
of contract deliverables (page 16).

Review of GSA’s General Management and Administration Working
Capital Fund. The General Management and Administration (GM&A)
Working Capital Fund (WCF) is a fully reimbursable revolving fund that


                                            April 1, 2008 – September 30, 2008 ix
                                           Executive Summary



                                      finances administrative support services that are provided to GSA
                                      organizations and other select Federal agencies. The objective of the
                                      review was to gain an understanding of the GM&A WCF and how the costs
                                      associated with this fund are allocated to the organizations within GSA. Our
                                      review found weaknesses and a lack of controls in the methods used to
                                      allocate GSA’s administrative service charges to components within GSA.
                                      Additionally, we question whether it is allowable for GSA to utilize an unused
                                      portion of the GM&A WCF as an offset to the next year’s Centralized
                                      Administrative Support bill. We also found insufficient documentation of
                                      expenditures and approvals of expenditures from the Surge Account, the
                                      Administrator’s discretionary fund to use for special initiatives (page 18).

                                      Audit of the Greater Chicagoland Service Center. The objective of the
                                      audit was to determine if the PBS Greater Chicagoland Service Center (1)
                                      made procurements that were prudent and in accordance with laws,
                                      regulations, and established policy and controls, and (2) effectively performed
                                      contract administration duties to assure that the quality and quantity of goods
                                      and services were what the Government ordered and paid for. The audit
                                      revealed that the Service Center did not always effectively exercise sound
                                      business judgment nor adhere to applicable laws, regulations, and
                                      established policy and procedures when making procurements. In particular,
                                      the Service Center misused an existing operations and maintenance (O&M)
                                      contract to procure and install touchless faucets and toilet/urinal valves for
                                      various buildings in downtown Chicago. Both the procurement process and
                                      the administration of the contract failed to follow the applicable procurement
                                      laws and regulations (page 21).

                                      Acquisitions with the Office of the Chief Acquisition Officer (OCAO).
                                      Between 2002 and 2005, the GSA OCAO awarded three contracts in support
                                      of OCAO initiatives to obtain and collect information on the GSA acquisition
                                      workforce. Our objective was to determine whether the contracts were
                                      awarded and administered in accordance with acquisition regulations,
                                      policies, and procedures. We found problems with contract oversight, in
                                      particular contract files that lacked required documents and complete
                                      information; vendor payments without adequate documentation; and
                                      deliverables not received in accordance with the contract. Other contract
                                      issues include improper funding related to Intra-agency Agreements,
                                      improper use of fiscal year funds on the Acquisition Career Management
                                      Information System contract, and timeliness of Acquisition Workforce Study
                                      modifications. On October 15, 2007, the OCAO Operational Contracting Staff
                                      was abolished and its functions transferred to the Contracting Division, Office
                                      of Management Services (page 23).

                                      Review of GSA’s Office of Congressional and Intergovernmental Affairs
                                      and the Office of Governmentwide Policy. On December 21, 2006, the
                                      GSA Administrator signed an order establishing the Office of Congressional
                                      and Intergovernmental Affairs and Governmentwide Policy as one
                                      organization from two separate offices. However, on February 15, 2007,


x Semiannual Report to the Congress
     Executive Summary



Congress signed Public Law 110-5, which prohibited the merger without the
explicit approval of the Committees on Appropriations of the House of
Representatives and the Senate. Once Congress disallowed the merger, the
audit objective became determining how GSA was complying with the
Congressional direction. While we found no evidence that GSA actively
implemented the consolidation of the two offices after the Congressional
enactment prohibited such action, the Agency did not rescind the order
establishing the merger until 17 months after Congressional disallowance.
With the issuance of the revised GSA Order, GSA has been in compliance
with Public Law 110-5 and the 2008 Consolidated Appropriations Act, as we
found no indication that organizational funds had been intermingled (page 24).

Audit of PBS’s Controls Over Security of Building Information. After
the Alfred P. Murrah Federal Building bombing, GSA and other agencies
reviewed GSA’s construction and security criteria to find ways to prevent such
an occurrence in the future. The audit objective was to determine whether
PBS has adequate controls in place to protect sensitive building information.
The audit revealed that the oversight practices of PBS project managers and
contracting officers to implement PBS security policies were inconsistent.
Inconsistencies were especially evident in the contract files, as many
contracts did not include language that would obligate contractors to use
reasonable care to protect sensitive building information. GSA should include
the contractors’ responsibilities for safeguarding sensitive building information
in the contract, including informing their subcontractors working on GSA
construction projects of their responsibilities (page 26).

Promoting and Protecting Integrity
GSA is responsible for providing working space for one million Federal
employees. The Agency also manages the transfer and disposal of excess
and surplus real and personal property and operates a governmentwide
service and supply system. To meet the needs of customer agencies,
GSA contracts for billions of dollars worth of equipment, supplies,
materials, and services each year. When systemic issues are identified
during investigations, they are shared with GSA management for appropriate
corrective actions. During this period, criminal, civil and other monetary
recoveries totaled more than $18.1 million.

Significant Civil Actions and Criminal Investigations
Civil Settlements. W.W. Grainger paid the United States $6 million to settle
a case involving sourcing from countries that do not have reciprocal trade
agreements with the U.S., in violation of the Trade Agreements Act (page 29).
Protective Products International, Inc., agreed to pay the U.S. almost
$1 million to resolve allegations that it knowingly sold the government
substandard and defective soft body armor (page 30). General Dynamic
Information Technology agreed to pay the U.S. $307,500 for submitting bills
to the government containing inflated hours and hourly rates (page 30).
Computer Sciences Corporation agreed to pay the government $1.37 million



                                             April 1, 2008 – September 30, 2008 xi
                                             Executive Summary



                                        to settle a case involving its receipt of kickbacks from companies with which it
                                        did business (page 29).

                                        Fraud and Theft of Government Property. In three cases involving over
                                        $4 million in government property, three individuals pled guilty to illegally
                                        obtaining government property; one individual additionally pled guilty to
                                        money laundering (page 32). OIG investigators successfully obtained
                                        judgments of over $2.5 million in restitution, and sentences of 7 years and
                                        9 months of total incarceration, 18 months of home confinement or detention,
                                        24 years of probation, and 8 years of supervised release, against nine
                                        individuals who were convicted of or pled guilty to charges of fraud against
                                        the United States (page 31).

                                        Other Crimes. OIG investigators also obtained guilty pleas or convictions
                                        for aggravated identity theft, immigration-related violations, attempted tax
                                        evasion, and receipt of child pornography (page 32).

                                        GSA Voyager Fleet Charge Card Abuse
                                        During this period, 21 individuals pled guilty, 20 individuals were indicted,
                                        and 11 individuals were arrested in connection with cases arising out of fleet
                                        charge card investigations. These cases involved thousands of dollars of
                                        fraudulent activities associated with this program (page 35).

                                        Suspension and Debarment – Highlights
                                        During this reporting period, the OIG made 116 referrals for consideration of
                                        suspension/debarment to the GSA Office of Acquisition Policy. GSA issued
                                        110 suspension and debarment actions based on current and previous OIG
                                        referrals (page 35).

                                        Integrity Awareness – Highlights
                                        The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                        employees on their responsibilities for the prevention of fraud and abuse and
                                        to reinforce employees’ roles in helping to ensure the integrity of Agency
                                        operations. This period, we presented 29 briefings attended by 722 regional
                                        and Central Office employees (page 36).

                                        OIG Hotline – Highlights
                                        During this reporting period, we received 1,508 Hotline contacts. Of these
                                        contacts, 268 Hotline cases were initiated. In 154 of these cases, referrals
                                        were made to GSA program officials for review and action as appropriate,
                                        49 were referred to other Federal agencies for follow up, 48 were referred for
                                        OIG criminal/civil investigations or audits, and 17 did not warrant further
                                        review (page 36).




xii Semiannual Report to the Congress
     Executive Summary



Summary of Results
The OIG made over $355 million in financial recommendations to better use
government funds; made 207 referrals for criminal prosecution, civil litigation,
and administrative actions; reviewed 209 legislative and regulatory actions;
issued 26 subpoenas; and received 1,508 Hotline contacts. This period, we
achieved savings from management decisions on financial recommendations,
civil settlements, and investigative recoveries totaling over $345 million.




                                            April 1, 2008 – September 30, 2008 xiii
                                        OIG Organization Chart




                                             Inspector General
                                                Brian D. Miller
                                          Deputy Inspector General
                                          Robert C. Erickson (Acting)


            Office of Counsel to the IG                                Office of Internal Evaluation & Analysis
                Richard Levi (Acting)                                               Peter J. Coniglio
             Deputy Counsel to the IG                                                   Director


     Office of Administration                   Office of Audits                      Office of Investigations
      Carolyn Presley-Doss                  Regina M. O’Brien (Acting)                   Charles J. Augone
      AIG for Administration                     AIG for Auditing                      AIG for Investigations


       Budget, Planning, and                      Audit Operations Staff                  Investigations Operations
       Financial Management                                                                        Division
              Division
                                                    Administration &
                                                   Data Systems Staff                         Regional Offices
       Facilities and Contracts
                Division                                                                       Washington, DC
                                                      Information                                New York
                                                 Technology Audit Office                          Atlanta
         Human Resources                                                                          Chicago
                                                                                                Kansas City
            Division
                                                      Real Property                              Fort Worth
                                                                                               San Francisco
                                                       Audit Office
                                                                                                  Auburn
       Information Technology
              Division                           Finance & Administrative
                                                       Audit Office
                                                                                                  Sub-Offices
                                                                                                     Boston
                                                   Acquisition Programs                              Denver
                                                       Audit Office                                Los Angeles
                                                                                                      Miami
                                                                                                   Philadelphia
                                                   Contract Audit Office



                                                    Field Audit Offices
                                                      Washington, DC
                                                        New York
                                                       Philadelphia
                                                         Atlanta
                                                         Chicago
                                                       Kansas City
                                                        Fort Worth
                                                      San Francisco


xiv Semiannual Report to the Congress
                                  OIG Profile



Organization          The GSA OIG was established on October 1, 1978 as one of the original 12
                      OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

                      The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative organization staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations through
                        program performance reviews, assessment of management controls, and
                        financial and compliance audits. The office conducts external reviews in
                        support of GSA contracting officials to ensure fair contract prices and
                        adherence to contract terms and conditions. The office also provides
                        research, benchmarking, and other services to assist Agency managers
                        in evaluating and improving their programs.

                      • The Office of Investigations, an investigative organization that conducts
                        a nationwide program to prevent, detect, and investigate illegal and/or
                        improper activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative/regulatory review.

                      • The Office of Internal Evaluation and Analysis, a multidisciplinary staff that
                        manages operational reviews of the OIG components, performs special
                        projects for the Inspector General, including research and analysis,
                        provides advice to the Inspector General, and conducts internal affairs
                        reviews and investigations.

                      • The Office of Administration, a professional staff that provides information
                        technology, budgetary, administrative, personnel, and communications
                        support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, DC, at GSA’s Central Office
                      Building. Field offices are maintained in Atlanta, Boston, Chicago, Denver,
                      Fort Worth, Kansas City, Los Angeles, Miami, New York, Philadelphia, San
                      Francisco, Auburn, WA, and Washington, DC. (A contact list of OIG offices
                      and key officials is provided in Appendix VII.)

Staffing and Budget   As of September 30, 2008, our on-board staff level was 298 employees.
                      However, we anticipate that we will achieve an onboard staff level of 316
                      full time equivalents by the end of Fiscal Year (FY) 2009. The OIG’s
                      FY 2009 President’s budget request was $54 million and in lieu of a full year
                      appropriation, the OIG is currently operating under a FY 2009 Continuing
                      Resolution that extends through March 6, 2009. In addition to these funds, the
                      OIG anticipates receiving $5.4 million during FY 2009 in reimbursable authority.


                                                                   April 1, 2008 – September 30, 2008 1
                                       Management Challenges



                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges facing
                                      the Agency. (The current list is summarized on the front inside cover.) This
                                      period we continued our work in addressing these challenges, making
                                      recommendations, and working with management to improve Agency
                                      operations. The following sections highlight our activities in these areas.

                                      Acquisition Programs
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews of
                                      these activities to ensure that the taxpayers’ interests are protected.

                                      Significant Preaward Reviews and Other Audits
                                      The OIG’s preaward review program provides information to contracting
                                      officers (CO) for use in negotiating contracts. The pre-decisional, advisory
                                      nature of preaward reviews distinguishes them from other audits. This
                                      program provides vital and current information to COs, enabling them to
                                      significantly improve the government’s negotiating position and to realize
                                      millions of dollars in savings on negotiated contracts.

                                      This period, the OIG performed preaward reviews of 41 contracts with an
                                      estimated value of $5.5 billion. We recommended that more than $355 million
                                      of funds be put to better use.

                                      Three of the more significant Multiple Award Schedule (MAS) contracts we
                                      reviewed had projected government-wide sales totaling $1.2 billion. The
                                      review findings recommended that $172 million in funds be put to better use.
                                      The reviews disclosed that these vendors offered prices and discounts to
                                      GSA that were not as favorable as the prices and discounts other customers
                                      received from these vendors. For example, one vendor for information
                                      technology (IT) services derived its offered labor rates from a customer with
                                      few IT service purchases. We provided the CO with lower labor rates based
                                      on a category of customer with IT sales more comparable to the volume of
                                      sales under the MAS contract. Another vendor for products and services did
                                      not disclose its actual sales practices, and its offer to GSA was not reflective
                                      of the company’s most favored customer pricing. Finally, a vendor for service
                                      solutions with no commercial customers provided us with cost buildup data
                                      which we adjusted to reflect the vendor’s current labor and indirect rates.

                                      There are more than 17,000 contracts with over $35 billion in business
                                      annually under GSA’s procurement programs. Past history has shown that for
                                      every dollar invested in preaward contract reviews, at least $10 in lower prices
                                      or more favorable terms and conditions are attained for the benefit of the
                                      government and the taxpayer. The Office of Management and Budget (OMB)
                                      has long recognized the increasing dollar value of GSA’s contract activities
                                      and our limited resources in providing commensurate audit coverage.
                                      Through the Federal Acquisition Service (FAS) contract program revenue,


2 Semiannual Report to the Congress
 Management Challenges



Acquisition Programs (continued)

OMB officials have provided us additional financial support to increase our
work in this area. These funds enabled us to hire additional staff to support
expanded contract review activities including, primarily, an increase in
preaward contract reviews, as well as more contract performance reviews
that evaluate contractors’ compliance with pricing, billing, contract terms,
and periodic program evaluations to assess the efficiency, economy, and
effectiveness of contracting activities. We now allocate about 50 percent of
our resources to contract reviews.

During this reporting period, management decisions were made on 30 of
the preaward reports issued during the last year, which recommended that
over $355 million of funds be put to better use. Management agreed with
93.1 percent of the recommended savings.

Survey of the Federal Acquisition Service Organization
Report Number A070122/Q/A/P08006, dated July 30, 2008

On October 6, 2006, Congress enacted Public Law 109-313, the General
Services Administration Modernization Act (the Act), that established FAS.
The FAS is a consolidation of what were previously the GSA’s Federal
Technology Service and Federal Supply Service. With the establishment
of FAS, GSA was tasked with merging two services with diverse cultures
and methodologies into one cohesive organization operating under one
Commissioner. The merger caused a major transformation of the
organizational framework of GSA and also had a great impact on the
Agency’s employees, customer agencies, and the Federal acquisition
environment.

GSA’s vision for FAS was to support strategic sourcing efforts across the
government by providing greater efficiency, effectiveness, and consistency
with internal operations, and to provide superior customer service by
providing goods and services to Federal government agencies at the best
value. In the first organizational design plans, GSA developed guiding
principles for FAS’s development:

• Provide clear lines of accountability for business results

• Minimize redundancy of functions

• Provide easy access for customers to reach GSA’s services

• Facilitate matching workforce to changing workloads

• Improve retention of key competencies in GSA’s workforce




                                             April 1, 2008 – September 30, 2008 3
                                       Management Challenges



                                      Acquisition Programs (continued)

                                      • Streamline/consolidate transaction processing to lower overhead costs

                                      • Partner support services with business units

                                      Our survey objective was to determine whether the FAS organization has
                                      achieved the benefits and guiding principles it was designed to accomplish.

                                      We found that FAS has had a number of successes with regard to its
                                      development. FAS management has established an organizational structure
                                      that is based on the products/services provided to customer agencies. Other
                                      achievements include: management’s advancement toward the integration of
                                      its technological assets for uniformity, the implementation of various process
                                      improvement initiatives, the establishment of the FAS Management Council,
                                      and consistent management of the new Acquisition Services Fund.

                                      While FAS has had successes, challenges remain that impact FAS
                                      employees and customer agencies. Some of the most notable impediments
                                      are: managing and maintaining legacy systems; maintaining a strong and
                                      dedicated management council; administrative challenges, including
                                      elimination of references to the former organizations; and assessing the fee
                                      structure to ensure that it meets the financial needs of the new organization in
                                      the most efficient manner. In addition, employees located in FAS regional
                                      offices face the challenge of balancing their local responsibilities with their
                                      responsibilities to their national reporting organizations.

                                      We did not make any recommendations in the survey given the magnitude of
                                      the change that FAS has undertaken and the initiatives that are already
                                      underway; however, we did include some observations. In order to address
                                      remaining challenges, management should apply workforce and knowledge
                                      planning practices to ensure that FAS always has the necessary staff to
                                      manage its existing and future systems. Also, FAS’s Management Council
                                      would benefit from the use of additional organizational documentation, such
                                      as a charter, in order to ensure it accomplishes its intended purpose. To
                                      achieve consistency across the FAS organization, management should
                                      develop and implement organization codes and functional statements
                                      effectively and in a timely manner. Further, management should be aware
                                      of and address the challenges that accompany the transition to the new
                                      Acquisition Services Fund.

                                      We recognize that the transformational change FAS has undertaken will take
                                      years to fully implement. However, management should carefully monitor
                                      the organization’s progress to address existing and future challenges and
                                      ensure that FAS delivers excellent acquisition services and best value for the
                                      government and the taxpayer. Legislative, regulatory, and oversight functions
                                      are currently in place to make sure that this progression continues.



4 Semiannual Report to the Congress
 Management Challenges



Contract Management
GSA increasingly accomplishes its mission by using contractors to provide
client services and products. Its multibillion-dollar acquisition programs have
expanded rapidly in terms of size, variety, and complexity of the procurements
performed. While many GSA contracts are well crafted and properly
administered, we continue to find a significant number of weaknesses. Our
audit work in recent years has revealed a growing list of warning signs
throughout the acquisition process that suggest that training and improved
technical and management skills are needed for the procurement workforce
to operate in the more sophisticated arena and keep pace with new demands.

Improving the FedRooms Program Based On Benchmarking
Report Number A080074/Q/A/P08009, dated September 29, 2008

The FAS requested a benchmarking study as a follow-up to our review of
FedRooms, (Report Number A070167/Q/9/P08002, issued on February 4,
2008). FedRooms is a non-mandated program which promotes the following
benefits with a hotel room reservation: rates at-or-below Federal per diem
allowances; no-fee reservation cancellation privileges; no added costs such
as health club or resort fees; no early check-out fees; and, last room
availability of program rates at many hotels. The February 2008 review
determined that usage of FedRooms was low and recommended that the
Commissioner of FAS develop a business plan for FedRooms. The objective
for the follow-up review was to determine how FAS can improve FedRooms to
gain wider participation by hotels and travelers, based on best practices used
by large corporations and states. The basis for our analyses was domestic
transient or short-term stay hotels, which represent 73 percent of the total
properties participating in FedRooms.

On September 21, 2004, Carlson Wagonlit Travel (CWT) was awarded the
contract to manage FedRooms. Program costs are approximately $650,000
annually for CWT (plus marketing expenses) and $853,000 per year for GSA.
To fund FedRooms, program hotels are required to remit a 2.75 percent fee to
CWT, whereby CWT retains 2 percent and sends 0.75 percent to GSA. As of
July 24, 2008, 6,578 hotels were participating in FedRooms. Smart Pay charges
for official civilian and military hotel rooms were $2.5 billion for FY 2007.

In FY 2007, less than one percent of hotel room reservations by Federal
travelers was made at the FedRooms rate. As a result, the Government has
very little leverage in the marketplace to further the goals of the program.

Benchmarking partners advised that the key to improving hotel rates and
amenities in a lodging program was to limit the number of program hotels
and to achieve actual stays by employees at these hotels. According to our
partners, implementing a successful lodging program positioned them with
leverage or buying power to negotiate with hotels for possibly even better
rates and amenities.


                                            April 1, 2008 – September 30, 2008 5
                                       Management Challenges




                                      In order to increase FedRooms usage among government travelers and
                                      thereby strengthen the Government’s leverage in the marketplace, our
                                      benchmark partners advised and we found that several steps must be taken:
                                      implement policy language that will strongly influence government travelers to
                                      use the lodging program; effectively communicate with travelers regarding the
                                      policy, the benefits of the lodging program, and when non-use of the program
                                      is detected; enhance the FedRooms.com on-line booking tool and travel
                                      authorization process; consider program funding alternatives; and, carefully
                                      define in the contract how to perform crucial program functions and retain
                                      ownership rights to the program website.

                                      We recommended that the Acting Commissioner of the Federal Acquisition
                                      Service:

                                      • Work in partnership with the Office of General Counsel and the Office of
                                        Governmentwide Policy to strengthen/improve the language in the Federal
                                        Travel Regulation (FTR) for FedRooms, including requiring travelers to cite
                                        one of the four exceptions listed in the FTR if they do not use a FedRooms
                                        hotel and obtain supervisory approval for the non-use.

                                      • Direct GSA program officials to work with CWT to determine the most
                                        effective method of marketing FedRooms and following up with non-
                                        compliant travelers.

                                      • As a means of increasing traveler use of FedRooms and satisfaction with
                                        their on-line booking experience, direct FAS to work with (a) CWT to
                                        improve its website, FedRooms.com, and (b) the E-Gov Travel Service
                                        vendors to automatically default and route to the preferred hotel content
                                        (FedRooms) within the on-line booking tool when an overnight stay is
                                        required.

                                      • Perform cost studies of funding alternatives to the 2.75 percent fee
                                        assessed to program hotels as a means of gaining greater hotel
                                        participation in FedRooms, greater traveler usage of the program, and
                                        program revenues that cover program costs.

                                      • Carefully define in the FedRooms follow-on solicitation issues such as (a) a
                                        methodology to solicit offers from, select or remove, and charge program
                                        hotels, and (b) ownership rights to the website used to list hotel information
                                        and make reservations, so flexibility in vendor selection for follow-on
                                        contracts to manage FedRooms is preserved.

                                      The Acting FAS Commissioner generally concurred with the report findings
                                      and recommendations.




6 Semiannual Report to the Congress
 Management Challenges



Information Technology
GSA is in the process of replacing or upgrading a number of its legacy
information systems to improve performance and take advantage of
technological advances. Since GSA has had difficulty sharing usable data
between systems, many of the new IT projects are intended to go beyond
automating current business functions and to create real change in the way
that GSA does business. However, GSA systems development projects have
typically experienced significant schedule delays and cost overruns, the need
for frequent redesign, and a prolonged period of time in development.

Work Remains in Implementing a Fully Integrated Pegasys
Financial Management System
Report Number A070094/B/T/F08009, dated June 23, 2008

The Chief Financial Officers (CFO) Act of 1990 requires Chief Financial
Officers to develop and maintain an integrated agency accounting and
financial management system including reporting and internal controls. In
October 2002, GSA’s Office of the Chief Financial Officer (OCFO)
implemented Pegasys, a Commercial-off-the-Shelf (COTS) product based on
CGI Momentum Financials, as the Agency’s financial management system of
record. With the implementation of Pegasys, several accounting functions,
including accounts payable, general ledger and cash management were
migrated from GSA’s legacy National Electronic Accounting and Reporting
(NEAR) system to Pegasys. The OCFO had decided to replace NEAR
because it recognized that the system had become increasingly burdensome
and costly to maintain; did not conform to regulatory requirements; required
development of many custom “bolt on” solutions to enable it to meet the
Agency’s financial needs; and was technically complex due to the number of
files, data structures, and interfaces that were required to operate the system.
CGI Momentum Financials, on which Pegasys is based, is a Financial
Systems Integration Office certified COTS product designed to meet Federal
financial system requirements and is used by over 100 Federal organizations,
including GSA. In July 2006, the OCFO implemented a web-based version of
Pegasys that provided several additional system enhancements. However, the
NEAR system continues to perform key accounting processes, including
those for accounts receivables and billing, asset accounting, credit cards
accounts payable, and inventory control.

The objective of this audit was to gather information on the status of Pegasys
and evaluate risks and potential improvements in two main areas: (1)
development and maintenance of an integrated accounting and financial
management system, and (2) system operations and response to
management and user needs.

With the implementation of Pegasys in October 2002, and subsequent efforts
undertaken to migrate functionality from GSA’s legacy NEAR system, the
OCFO has made progress in modernizing the Agency’s financial systems


                                            April 1, 2008 – September 30, 2008 7
                                       Management Challenges



                                      Information Technology (continued)

                                      environment to meet regulatory requirements and provide enhanced services
                                      to GSA and external customers. The OCFO has also undertaken several
                                      efforts to better ensure Pegasys’ success, such as analyzing current business
                                      processes and developing a target financial systems environment. However,
                                      several key steps remain in completing the development of an integrated
                                      financial management system. GSA’s fragmented financial systems
                                      environment, with duplicate systems and nonstandard business processes,
                                      has complicated and delayed OCFO efforts to migrate remaining NEAR
                                      functionality, integrate feeder systems, and meet strategic goals with the
                                      system. Within this financial systems environment, the OCFO also faces
                                      obstacles with ensuring the security and privacy of Pegasys data and
                                      transactions that are often scattered in multiple agency systems. Significant
                                      access control weaknesses with web applications that interface with, or
                                      process system information, have put at risk sensitive Pegasys data,
                                      including Personally Identifiable Information (PII) and the integrity of certain
                                      transactions. While implementation reviews have been conducted for the
                                      system to provide management with information on changes that may be
                                      needed and to assist with migration and integration, opportunities exist to
                                      provide a broader review of whether Pegasys is meeting GSA and customer
                                      needs in a cost-effective manner. Reported total costs to develop, operate,
                                      and maintain the system have reached approximately $209 million. However,
                                      costs are not consistently classified and recorded within Pegasys itself,
                                      making it difficult to independently verify reported cost figures. With increasing
                                      system costs, and important procurement activities underway to migrate
                                      NEAR system functionality to Pegasys, it is important that the OCFO ensure
                                      that project costs are consistently tracked within the financial management
                                      system of record and reported to decision makers.

                                      To successfully transition to the target financial management architecture and
                                      meet strategic goals related to timely and accurate financial reporting and
                                      analysis, reliable financial management systems, and delivery of world class
                                      financial management services to GSA and external customers, we
                                      recommended that the Chief Financial Officer:

                                      • Coordinate with GSA Services, Staff Offices, and Regions to develop a
                                        detailed plan for migration and integration of remaining NEAR functionality
                                        and other systems with Pegasys.

                                      • Ensure that system implementation review processes comprehensively
                                        consider how Pegasys is meeting Agency and customer needs.

                                      • Work with GSA Services, Staff Offices, and Regions to improve security
                                        and privacy controls for sensitive Pegasys data.

                                      • Ensure that Pegasys costs are appropriately classified, identifiable, and
                                        tracked within the Agency’s financial accounting system of record.


8 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

The Chief Financial Officer concurred with the audit findings and
recommendations.

Access Controls Could Help Protect Personnel Information within the
Comprehensive Human Resources Integrated System (CHRIS)
Report Number A060246/O/T/F08013, dated September 8, 2008

GSA’s Office of the Chief Human Capital Officer (OCHCO) deployed the
Comprehensive Human Resources Integrated System (CHRIS), a
customized version of Oracle’s Federal Human Resources Management
System, in August 2000 to provide on-line capabilities through a client server
environment and improve Human Resources (HR) processing. GSA and other
Federal customers rely on CHRIS to initiate, generate, and store personnel
actions and to generate HR data needed to meet internal and external
reporting requirements. In two prior audit reports, we reported the potential
impact of strategic challenges and security vulnerabilities on CHRIS, and
over the past seven years, the system has undergone significant changes to
improve user-based functionality. This audit built on the results of the previous
CHRIS reviews and focused primarily on whether specific management,
operational, and technical controls have been implemented to appropriately
limit access to sensitive personnel information.

In fully implementing the CHRIS system, GSA’s OCHCO has provided
important on-line capabilities and improved HR processes for GSA personnel
and employees of other Federal agencies that have contracted with GSA to
use the system. Our audit identified several areas where improved access
controls for CHRIS could better protect personnel information. We found that
careful consideration of the system’s functionality and controls is needed to
better restrict access to certain personnel data. Overall, improved access
controls would help to enforce “Least Privilege” requirements for CHRIS.
“Least Privilege” is a policy that requires that a system’s user be given no
more access than necessary to perform his or her official duties. Mainly, more
consideration of potential risks with specific manager self-service capabilities
and associated access controls is needed to demonstrate that required
security controls are in place and operating as expected. Independent reviews
of CHRIS audit logs could also help address “Separation of Duties” control
risks, and particular attention to controls for system reporting capabilities
would greatly assist in efforts to protect CHRIS data. We also identified the
need to better define key roles and responsibilities for establishing and
maintaining controls over CHRIS reporting practices through the on-line
reporting utility. Further, security vulnerabilities were found in regards to the
Oracle database and web application.

To better restrict access to personnel information, we recommended that the
GSA Chief Human Capital Officer:



                                             April 1, 2008 – September 30, 2008 9
                                           Management Challenges



                                       Information Technology (continued)

                                       • Complete a comprehensive assessment to determine if CHRIS has been
                                         implemented in accordance with user and management requirements and
                                         whether “Least Privilege” controls are in place and operating as intended.

                                       • Ensure independent reviews of CHRIS auditing and monitoring logs are
                                         completed.

                                       • Coordinate with Public Buildings Service (PBS) to establish a
                                         Memorandum of Understanding that defines roles and responsibilities for
                                         securing CHRIS data for PBS and the OCHCO and identifies security
                                         controls required to protect personnel data viewed with the Business
                                         Objects reporting utility.

                                       • Address CHRIS technical vulnerabilities and ensure all known
                                         vulnerabilities are promptly recorded and mitigated.

                                       The GSA Chief Human Capital Officer concurred with the report findings and
                                       recommendations.

                                       FY 2008 Office of Inspector General FISMA Review of
                                       GSA’s Information Technology Security Program
                                       Report Number A080081/O/T/F08016, dated September 11, 2008

                                       The Federal Information Security Management Act of 2002 (FISMA) requires
                                       Federal agencies to develop, implement, and document an agency-wide
                                       information security program. FISMA provides a framework for securing
                                       Federal information systems including: (1) assurance of the effectiveness of
                                       information security controls over information resources; (2) development and
                                       maintenance of minimum controls required to protect Federal information and
                                       information systems; and (3) a mechanism for improved oversight of agency
                                       information security programs. The objectives of this audit were to assess the
                                       effectiveness of controls over GSA systems and data and to address specific
                                       questions and reporting requirements identified by OMB. We reviewed four
                                       systems, including one contractor system, to assess implementation of GSA’s
                                       IT Security Program.

                                       FISMA audit work relies on GSA’s IT Security Policy,1 procedures, standards,
                                       and guides for implementing GSA’s IT Security Program. GSA’s IT Security
                                       Program incorporates designated security roles and responsibilities and
                                       National Institute of Standards and Technology guidance into agency policies
                                       and procedures. In addition, GSA has taken steps to identify and reduce risks
                                       through implementation of additional management, operational, and technical


                                       1
                                           GSA Order CIO P 2100.1D - GSA Information Technology (IT) Security Policy, June 21,
                                           2007.


10 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

controls. However, inconsistent implementation of controls and insufficient
management oversight of contractors continue to hinder GSA’s IT Security
Program from being fully effective in identifying and managing risks for all
GSA systems and data. Deficiencies in the following areas adversely impact
the effectiveness of GSA’s IT Security Program: 1) contractor oversight,
2) protection of sensitive information, 3) security of publicly facing websites,
and 4) controls for minor applications.

GSA’s oversight of contractor-supported systems needs to be more
comprehensive. Management oversight of contractor-supported systems
reviewed this year had not ensured that risks were adequately managed,
since task-order requirements and deliverables were not comprehensive.
Configuration management weaknesses expose systems to undue risks that
could affect the confidentiality, integrity, or availability of GSA systems and
data. In addition, contractor background investigations were not appropriately
performed for contractors supporting three of four systems reviewed. The
failure to perform appropriate and timely background investigations means
that contractors were granted privileged access without appropriate approval,
placing GSA systems and data at risk of insider attack.

All actions necessary to ensure the adequate protection of sensitive
information have not been completed, including the implementation of a
comprehensive breach notification policy and OMB Memorandum M-06-16
requirements. The memorandum requires all agencies to encrypt data on
mobile devices, implement a 30-minute timeout for remote access and
mobile devices, use two-factor authentication for remote access, and log
all computer-readable data extracts from database holding Personally
Identifiable Information (PII). Incomplete implementation of encryption and a
breach notification policy put GSA and its systems at risk of losing sensitive
data and not being able to respond to the data breach in a timely, effective,
and comprehensive manner.

GSA has not consistently secured its public web presence through the
protection of login credentials, support for required encryption, and consistent
use of government domains. Of the 38 GSA publicly facing web applications
we assessed, nine do not employ encryption to protect login credentials, an
additional nine applications do not support the use of required encryption,
and six applications are hosted on .com domains that are not approved for
Federal websites. When proper protection mechanisms are not used, systems
and data are susceptible to eavesdropping and phishing attacks.

Security controls for minor applications were not adequate to address risk.
Weaknesses in securing minor applications occurred when system owners
focused on the major components within their system boundaries and the
GSA IT Security policy and procedures do not explicitly address minor
applications.


                                             April 1, 2008 – September 30, 2008 11
                                        Management Challenges



                                       Information Technology (continued)

                                       To strengthen GSA’s IT Security Program and improve the security of
                                       information technology assets, we recommended that the Chief Information
                                       Officer take actions to:

                                       • Work with the Office of the Chief Acquisition Officer to develop standard
                                         requirements and deliverables for IT service contracts and task orders that
                                         promote compliance with GSA IT Security Policy and procedures.

                                       • Work with the Office of the Chief Acquisition Officer and the Office of the
                                         Chief Human Capital Officer to ensure consistent background investigation
                                         requirements in policies, procedures, and task orders.

                                       • Expedite actions to implement encryption of mobile devices and two-factor
                                         authentication, and work with the Office of the Chief Human Capital Officer
                                         to promptly fulfill responsibilities for implementing a comprehensive breach
                                         notification policy.

                                       • Enhance monitoring of GSA’s public web presence and ensure that all of
                                         GSA’s publicly facing web applications:

                                         • Encrypt login credentials.
                                         • Support Federal Information Processing Standards (FIPS) Publication
                                           140-2 encryption.
                                         • Use approved Government domains for GSA web applications.

                                       • Ensure that the IT Security Policy thoroughly addresses requirements for
                                         the need for securing minor applications.

                                       The Chief Information Officer concurred with the report findings and
                                       recommendations.

                                       To assess the effectiveness of GSA’s IT Security Program for meeting the
                                       FISMA requirements, we based our results on four separate audits of the
                                       following systems: Public Buildings Service (PBS) Corporate, Region 7 Local
                                       Area Network (LAN); Office of General Counsel LAN; and, the Regional
                                       Business Applications (RBA). The reports contain audit findings and
                                       recommendations. Below each report is summarized.

                                       • PBS Corporate is a general support system operated by contractors and
                                         owned by PBS. It includes 41 minor applications and hosts PBS’s national
                                         applications, including eLease, IRIS, and OA Tool. PBS Corporate provides
                                         the hardware and necessary facilities for the operation of all its applications
                                         and provides common security controls for PBS national applications
                                         including: contingency planning, incident response, some personnel
                                         security controls, physical security, environmental security, and operating
                                         system patch management. In our review of selected IT system security


12 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

  controls for PBS Corporate, we found that controls covering Federal
  systems required by FISMA and the GSA IT security program were not
  working effectively in 7 of 17 areas. We identified opportunities to
  improve security controls in the areas of access control, certification and
  accreditation, configuration management, identification and authentication,
  planning, system and services acquisition, and system and information
  integrity. The report contained two recommendations for the PBS
  Commissioner to identify all minor applications with significant data
  sensitivity or mission criticality and develop and incorporate performance
  measures into the contract/task order procuring system.

• The Region 7 FTS/PBS LAN is a general support system that provides
  network connectivity services within the Fort Worth, Texas, Regional Office
  Building and for field offices throughout the five-state region. The system
  encompasses user workstations, telecommunications equipment (including
  hubs and switches), and test platforms, and consists of many components.
  The Region 7 LAN is a Federal system owned by the GSA Office of the
  CIO and supported by contractors and regional staff. In our review of
  selected IT system security controls for the Region 7 LAN, we found
  controls covering Federal systems required by FISMA and the GSA IT
  security program were not working effectively in 6 of 17 areas. We identified
  opportunities to improve security controls in the areas of access control,
  configuration management, identification and authentication, personnel
  security, system and communications protection, and system and
  information integrity. The report contained two recommendations for the
  Chief Information Officer to reduce risk, enhance system security, and
  ensure background investigations are conducted in accordance with
  Agency policy.

• The Office of General Counsel (OGC) carries out the legal activities of
  GSA; ensures full and proper implementation of GSA’s statutory
  responsibilities; and, provides legal counsel to the Administrator, the
  Deputy Administrator, and other officials of GSA (with the exception of
  certain legal activities of the Office of Inspector General and the Board of
  Contract Appeals). The OGC LAN supports activities for the OGC and the
  Office of Civil Rights by providing connectivity and electronic
  communications for the purpose of legal research, word processing,
  document management, file sharing, and Internet connectivity. In our
  review of selected IT system security controls for the OGC LAN, we found
  controls covering Federal systems required by FISMA and the GSA IT
  security program were not working effectively in 5 of 17 areas. We identified
  opportunities to improve security controls in the areas of access control,
  configuration management, identification and authentication, personnel
  security, and system and services acquisition. The report contained two
  recommendations for the General Counsel to reduce risk and enhance
  security.


                                           April 1, 2008 – September 30, 2008 13
                                        Management Challenges



                                       Information Technology (continued)

                                       • The Regional Business Applications (RBA) system supports GSA’s
                                         acquisition-related and financial processing totaling billions of dollars. RBA
                                         supports the FAS by providing the functionality to capture, process, award,
                                         and track the finances of Federal agency client task orders for goods and
                                         services under the Information Technology, Professional, and Expanded
                                         Services programs. Additionally, RBA assists in the information capture for
                                         external agency orders placed against GSA Government-wide Acquisition
                                         Contracts (GWACS). In our review of selected IT system security controls
                                         for the RBA system, we found controls covering Federal systems required
                                         by FISMA and the GSA IT security program were not working effectively
                                         in 7 of 17 areas. We identified opportunities to improve security controls
                                         in the areas of access control, audit and accountability, configuration
                                         management, contingency planning, identification and authentication,
                                         personnel security, and system and communications protection. The
                                         report contained four recommendations for the Acting Commissioner,
                                         Federal Acquisition Service, to reduce risk, enhance RBA system security
                                         and oversight, address configuration vulnerabilities, and ensure that
                                         contingency planning efforts for RBA include an approved Business Impact
                                         Analysis.

                                       Management Controls
                                       Multiple management controls and extensive supervisory reviews have
                                       been replaced, through streamlining efforts, by fewer and broader controls,
                                       making it essential that the remaining control processes be emphasized and
                                       consistently followed. Streamlined processes have helped GSA achieve its
                                       goal of serving customers more quickly and efficiently; however, the Agency is
                                       exposed to the risk of mismanagement and abuse if program officials do not
                                       ensure the faithful application of existing safeguards.

                                       Audit of Reimbursable Work Authorizations
                                       Report Number A060101/P/2/R08006, dated September 30, 2008

                                       The Public Buildings Service (PBS) was established by the Public Buildings
                                       Act of 1959, which sets forth the functions of PBS, including providing repairs
                                       and alterations of Government owned or leased space on a reimbursable
                                       basis. PBS established the Reimbursable Work Authorization (RWA) vehicle
                                       to provide this service to its client Federal agencies. RWAs capture and bill
                                       the costs of altering, repairing, renovating or providing services in space
                                       managed by GSA, over and above the basic operations financed through
                                       rent, and in other properties managed by the Federal community. A properly
                                       executed RWA provides written documentation to ensure there is a formal
                                       agreement between the customer and PBS. The RWA must include a clear,
                                       concise statement identifying the requesting agency’s specific need and
                                       clearly establishing the financial arrangements between the requesting



14 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

agency and PBS. RWAs have become a significant part of PBS’s operation
with more than 10,000 requests accepted annually, resulting in $1 billion in
business.

The primary objectives of our review were to determine if 1) RWAs are
properly accounted for and 2) controls over RWAs are adequate and effective.

The Office of Audits performed a study of PBS’s RWA activities and found
multiple issues. In many cases, the RWAs did not have a documented scope
of work or the underlying estimate for the work when PBS accepted the RWA.
The lack of scope and estimates raises concerns about the bona fide need of
the client as in cases where the RWA funding was used for customer work
outside of the scope originally cited in the RWA or work was performed well
after the receipt of the RWA, sometimes in the next fiscal year. In addition,
RWAs were sometimes left open after the work was completed and the
funding used for other projects. Also, PBS did not always follow the
appropriate procurement regulations when contracting for the repairs and
alterations.

Further, RWA policies were unclear regarding whether work needed
authorization from Congress when the costs were expected to be above the
prospectus threshold. Additionally, in some cases project costs were allocated
to the wrong building or allocated inconsistently. Finally, for RWAs in leased
space, a single person was often responsible for all aspects of the RWA
rather than having the duties segregated to ensure proper internal controls.

PBS has recognized that RWA management is a problem area affecting its
financial controls and relationships with clients and in recent years undertook
significant initiatives to improve RWA performance. In May 2005, PBS issued
a RWA National Policy Document to consolidate pre-existing RWA policy and
guidance, ensure a standardized RWA process from initiation to closure, and
serve as the primary resource for PBS staff for guidance on RWA policy. In
July 2006, PBS created a national RWA project management team (National
Team) to review and assess the RWA program. While our audit was
on-going, the National Team issued a draft report in January 2007 that
made recommendations for improving (1) standardized policy interpretation,
(2) financial management and reporting, (3) the project management process,
(4) RWA management and training and (5) ownership over the RWA.

We recommended that the Commissioner of the Public Buildings Service:

• Ensure the controls recommended by the National Team are effectively
  implemented and adhered to and that the results achieved are monitored.




                                           April 1, 2008 – September 30, 2008 15
                                        Management Challenges



                                       Management Controls (continued)

                                       • Ensure the residual risks associated with the RWA process identified in this
                                         report are incorporated into the National Team’s reengineered process,
                                         addressed by management where clarifications are needed and/or
                                         disseminated to GSA associates as part of their overall training/
                                         implementation process. Specifically, GSA needs to ensure that:

                                         • RWAs impacted by prospectus-related issues, such as projects being
                                           divided into phases, RWA amendments pushing the prospectus
                                           threshold or RWAs based on a client agency’s specific line-item
                                           appropriation, are handled appropriately.
                                         • Applicable procurement regulations are followed when providing
                                           contracting support to client agencies under an RWA.
                                         • RWA project costs are allocated to the specific facilities for which the
                                           costs were incurred.
                                         • Project management service costs are consistently allocated to the
                                           specific RWAs.
                                         • Duties are properly segregated for leased space alterations using RWA
                                           funding.

                                       The Commissioner of PBS concurred with the report findings and
                                       recommendations.

                                       Limited Review of Alliant and Alliant Small Business
                                       Report Number A080152/Q/A/P08008, dated September 22, 2008

                                       In 2006, FAS issued solicitations for two GWACs—Alliant and Alliant Small
                                       Business with an estimated value of $65 billion. Proposals submitted for
                                       award under the Alliant and Alliant Small Business contracts were subject to a
                                       past performance evaluation. FAS contracted for assistance with conducting
                                       interviews of the Alliant and Alliant Small Business offerors’ previous
                                       customers to obtain performance information to be used in these past
                                       performance evaluations. The contractor was responsible for conducting
                                       approximately 600 interviews for Alliant and 1,500 for Alliant Small Business,
                                       transcribing those interviews and then obtaining a validation of the interview
                                       answers from the interviewees. The contractor then provided the information
                                       to GSA’s past performance evaluation team for the respective contracts.

                                       GSA ultimately selected 29 contractors for award for Alliant and
                                       62 contractors for award for Alliant Small Business. Subsequently, eight
                                       unsuccessful offerors under Alliant sought review of the award process. The
                                       U.S. Court of Federal Claims concluded on March 3, 2008 that the GSA failed
                                       to take adequate steps to ensure that the past performance information it
                                       received was relevant to the evaluation factors and also failed to ensure that
                                       the information obtained was accurate. Past performance evaluation issues
                                       were one factor that led the Court to require FAS to reevaluate all of the


16 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

Alliant proposals. Given the Court’s conclusion and the reevaluation of the
Alliant and Alliant Small Business awards, we initiated a limited review of the
past performance support task order.

The objectives of this review were (1) to determine to what extent FAS
followed applicable laws, regulations, and guidance when awarding and
administering the past performance support task order and (2) to determine
how FAS ensured that the contractor had no conflict of interest.

Our limited review of the Alliant and Alliant Small Business past performance
support task order identified that FAS did not always adhere to relevant
policies and procedures during the key phases of planning, award, and
administration. We determined that FAS did not prepare an acquisition plan
for the past performance support task order, as required by GSA Order OGP
2800.1. Through acquisition planning, the requiring activity should identify
specific requirements and outline a preliminary statement of need.
Additionally, the activity should establish realistic delivery and performance
schedules and identify management responsibilities for overseeing contract
performance. Given that there is no evidence of sufficient acquisition
planning, there is limited assurance that the government’s needs were met in
the most effective, economical, and timely manner.

We also found that there was no evidence of a tradeoff analysis or an
evaluation of level of effort and labor mix in the contract file documentation to
ensure that the government is receiving a fair and reasonable price. Of the
three contractors who submitted proposals in response to the solicitation FAS
issued for the past performance support task order, the selected contractor
submitted the highest priced proposal, 36 percent higher than the next
proposal. Although the selected contractor’s technical evaluation was the
highest, there is no evidence that the contracting officer performed the
tradeoff analysis in making a best value determination, as required by the
Federal Acquisition Regulation (FAR). The FAR permits tradeoffs among cost
or price and non-cost factors to allow the government to accept other than the
lowest priced proposal if the perceived benefits of the higher-priced proposal
merit the additional cost. In addition, the FAR has specific requirements for
the determination of price reasonableness for orders for services. Specifically,
the FAR requires an analysis of the level of effort and labor mix to arrive at
the conclusion that the total price is fair and reasonable. The contract file
documentation does not reflect that this analysis was performed. Thus, there
is concern whether the government needed to pay a premium for this work
and whether the government received a fair and reasonable price.

Additionally, we determined that FAS did not comply with proper contract
administration procedures relative to the inspection and acceptance of
contract deliverables. Deliverables to be received by the government included



                                            April 1, 2008 – September 30, 2008 17
                                        Management Challenges



                                       Management Controls (continued)

                                       all interview reports and a file showing the interviewees’ validations. FAS
                                       received all of the interview reports; however, the Contracting Officer’s
                                       Technical Representative (COTR) authorized final payment to the contractor
                                       without receiving the validation documentation. As a result, there was no
                                       assurance that the contractor performed the work for which it was paid.
                                       Consequently, GSA relied upon the past performance information obtained by
                                       the contractor when evaluating Alliant and Alliant Small Business proposals
                                       for awards and awarded those contracts without ensuring the information was
                                       valid and accurate. Finally, we determined that FAS required the selected
                                       contractor to self-certify that no conflict of interest existed between it and the
                                       contractors bidding on the Alliant or Alliant Small Business GWACs.

                                       We recommended that the Acting Commissioner of the Federal Acquisition
                                       Service:

                                       • Provide contracting officers with periodic refresher training on the
                                         requirements for acquisition planning, price analysis and award
                                         determination for orders placed under Multiple Award Schedules.

                                       • Increase supervisory oversight during the award and administration of task
                                         orders to ensure the adherence to policies and procedures.

                                       • Ensure that (a) contract administration duties are part of the designated
                                         Contracting Officer Representative (COR) or COTR’s regular job
                                         responsibilities; (b) all CORs and COTRs attend training related to their
                                         roles and responsibilities on a regular basis; (c) OMB guidelines on COTR
                                         training and certification are followed; and (d) COR and COTR delegations
                                         are properly documented.

                                       The FAS Acting Commissioner concurred with the report findings and
                                       recommendations.

                                       Review of GSA’s General Management and Administration
                                       Working Capital Fund
                                       Report Number A070096/B/F/F08008, dated June 24, 2008

                                       The General Management and Administration (GM&A) Working Capital Fund
                                       (WCF) is a fully reimbursable revolving fund that finances administrative
                                       support services that are provided to GSA organizations and other select
                                       Federal agencies. The GM&A WCF is comprised of three main services. First,
                                       Centralized Administrative Support (CAS) is comprised of agency-wide
                                       functions such as finance, budget and accounting support, information
                                       technology, personnel administration, acquisition policy, and legal services.
                                       The CAS represents the largest portion of GM&A WCF at approximately
                                       55 percent of total obligations and includes the Surge Account, which is the



18 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

Administrator’s discretionary fund to use for special initiatives. Second,
Centralized Charges consists of costs paid by GSA for programs and services
such as Unemployment Compensation, Workman’s Compensation, postage,
FTS long distance services, and wireless cell phone service. Third, Enterprise
Infrastructure Operations includes charges paid to the Office of the Chief
Information Officer for services, such as desktop services, customer services,
network operations, infrastructure applications and business applications.

The GM&A WCF is authorized to recover, through billing rates, all costs of
providing requested services to GSA organizations and select Federal
agencies, including charges for personnel, materials, equipment, and related
expenses. The billing rates are based on a workload statistics methodology or
full-time equivalent (FTE) methodology. The objective of the review was to
gain an understanding of the GM&A WCF and how the costs associated with
this fund are allocated to the organizations within the GSA.

Our review of the GM&A WCF found weaknesses and a lack of controls in
the methods used to allocate GSA’s administrative service charges to
components within GSA. Some staff offices charge GSA components based on
workload statistics. However, the Office of the Controller officials stated they do
not maintain the documentation to support these statistics. The majority of the
GM&A WCF charges allocated to GSA components are apportioned pro rata
based upon the components’ FTE levels as a percentage of GSA’s FTE level.
According to the Office of the Controller officials, there is no requirement that
workload statistics be submitted. However, without workload statistics, the
charges apportioned to individual components may not be accurate.
Additionally, there is little documentation on overall policies and procedures for
allocating charges for the GM&A WCF. Furthermore, according to the Office of
the Controller, any funds remaining in the GM&A WCF Account are rolled into
the Agency’s unobligated Balance Account at the end of the fiscal year. In the
next fiscal year, a portion of the unobligated balance is reallocated to GSA
components in the form of a credit for the next CAS bill. Some GSA
components such as the Office of Governmentwide Policy (OGP) and the OIG
receive one-year appropriated funds from Congress.

Appropriations rules require that funds be used only for a purpose authorized
by law and that funds not spent before the end of their appropriated lifespan
must be returned to the Treasury. The funds the OGP and the OIG utilize to
pay the CAS bill are appropriated funds. These funds are collected by the
Agency and placed into the WCF. Although the Agency “refunds” any unused
portion of the GM&A WCF in the form of a reduction of the next year’s CAS
bill, unspent appropriated funds used to fund the GM&A WCF should be
returned to the appropriated organization that submitted them to be either
utilized by that organization or returned to the Treasury. We question whether
it is allowable for GSA to utilize an unused portion of the GM&A WCF as an
offset to the next year’s CAS bill.


                                             April 1, 2008 – September 30, 2008 19
                                        Management Challenges



                                       Management Controls (continued)

                                       We also found control weaknesses in the Surge Account. The Surge Account
                                       can be used for: (1) the Administrator’s corporate projects; (2) the
                                       Administration’s unfunded mandates; and (3) one-time costs or recurring
                                       costs for items where permanent out-year financing has been approved
                                       and/or the agency will absorb from the existing baseline in future fiscal years;
                                       and expenditures must support GSA customers/stakeholders, although
                                       external customers may benefit indirectly. It is not intended for the use of
                                       (1) increases in operating expenses of Staff Offices; (2) renovation of offices,
                                       (3) replacement of furniture; (4) replacement of personal computers; and
                                       (5) funding for existing staff or new staff where subsequent year funding has
                                       not been secured by paying customers.

                                       According to the Office of the Controller, disbursements from the Surge Account
                                       must go through an approval process. Once a request is submitted by the
                                       Administrator to the OCFO, the Agency’s General Counsel and the Office of
                                       Controller within the OCFO must approve the request before any disbursements
                                       are made from the Surge Account. However, the Controller’s Office was not able
                                       to provide any documentation validating this approval process.

                                       Funding that is at the discretion of the head of the agency should include
                                       clear and detailed documentation and formal policies and procedures on how
                                       the funds can be used. Prior to 2007, the Surge Account funding and
                                       disbursements flowed through the accounting system as part of the CAS
                                       funding and disbursements, but were not specifically identified as Surge
                                       disbursements; rather, they were simply included in the “Remaining CFO
                                       Activities” line item as part of the “Corporate Account.” We reviewed all
                                       disbursements from the overall “Corporate Account” for FY 2006 and
                                       FY 2007. During our review, we noted a contract totaling $219,000 for
                                       the Fitness Center Renovation in the September Corporate Account
                                       documentation. Since there was a $29,000 charge in FY 2007 for the Fitness
                                       Center equipment, we inquired whether the $219,000 was also a Surge
                                       disbursement as it was not initially disclosed as a FY 2006 disbursement. The
                                       Controller’s Office confirmed this was a Surge disbursement, and should have
                                       been captured in the FY 2006 data provided to the OIG. This discrepancy was
                                       caused by not specifically identifying Surge funding and disbursements within
                                       the CAS account. Office of the Controller officials stated there were no other
                                       such Surge Account disbursements that were not identified. However, since
                                       Surge Account disbursements were not identified as such, we are unable to
                                       verify whether there were any additional Surge Account disbursements.

                                       Based on our review, we recommended that the Chief Financial Officer:

                                       • Develop formal policies and procedures for allocating CAS charges
                                         including determining the appropriate cost allocation methodology
                                         (i.e. workload statistics or FTE level), and documenting the rationale for
                                         the chosen methodology.

20 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

• Ensure all policies and procedures defining the appropriate use of the
  Surge Account are followed and the method of approval for each
  disbursement from the Surge Account is documented.

• Seek a legal opinion from the Office of General Counsel on whether, and
  under what conditions, it is allowable under appropriations law to utilize the
  unused portion of the GM&A WCF to reduce the subsequent year’s CAS
  bill or, is it more appropriate to return any unused appropriated funds back
  to the organization that submitted them.

The Chief Financial Officer agreed with the findings and recommendations.

Audit of the Greater Chicagoland Service Center
Report Number A060125/P/5/R080004, dated June 4, 2008

GSA, through PBS, has the responsibility to provide fully serviced space to
house Government agencies in federally owned and leased buildings. PBS
service centers fulfill the needs and requests of Government agencies that
occupy space in the buildings. In general, service center activities include
procurement, asset management, and contract and lease administration. The
service center also provides the technical resources necessary for building
repairs and workspace alterations.

The Greater Chicagoland Service Center (Service Center), which is
headquartered in Chicago, Illinois, manages over seven million square feet of
space located in 22 Government-owned buildings and 148 leased buildings in
northern Illinois and northern Indiana. It has approximately 80 employees
organized into eight management teams. The staff is located in Chicago, and
Hammond and South Bend, Indiana. The objective of the audit was to
determine if the Service Center (1) made procurements that were prudent
and in accordance with laws, regulations, and established policy and controls,
and (2) effectively performed contract administration duties to assure that the
quality and quantity of goods and services were what the Government
ordered and paid.

Our review showed a significant improvement in quality control plans, quality
assurance surveillance plans, and security clearances relative to our prior
audits of other PBS field activities in the Great Lakes Region. However, the
Service Center did not always effectively exercise sound business judgment
nor adhere to applicable laws, regulations, and established policy and
procedures when making procurements. The Service Center also did not
effectively perform certain contract administration duties that resulted in
additional costs to the Government. In many cases, effective internal
management controls were absent or poorly implemented.




                                            April 1, 2008 – September 30, 2008 21
                                        Management Challenges



                                       Management Controls (continued)

                                       The Service Center misused an existing operations and maintenance (O&M)
                                       contract to procure and install touchless faucets and toilet/urinal valves
                                       costing nearly $200,000 in the John C. Kluczynski Federal Building. The
                                       orders were placed non-competitively with the O&M contractor using
                                       operations and maintenance funds instead of repair and alterations funds. In
                                       addition, the orders were split so as to be below the simplified acquisition
                                       threshold of $100,000. No justification was prepared showing that touchless
                                       faucets would result in any reasonable savings to the Government. Also, no
                                       reason was given for (1) procuring the new costly faucets/valves when a
                                       restroom remodeling project ($12.4 million) was scheduled for the near future,
                                       (2) the specification of only one brand name, or (3) the decision to relieve the
                                       O&M contractor of replacing any defective equipment on a case-by-case
                                       basis up to the $2,000 repair threshold of the contract. While the audit was in
                                       progress, an additional $327,000 worth of faucets/valves were ordered for
                                       other downtown Chicago buildings.

                                       Other contract administration problems identified included not adhering to
                                       labor rates established in an O&M contract ($112 paid vs. $46.75 contract
                                       rate) and ignoring the provisions of the Davis-Bacon Act on construction
                                       contracts. In addition, the existence of higher union labor rates to bidders on a
                                       janitorial contract, which resulted in a contract amendment that increased the
                                       cost to the Government by $1.6 million over the life of the contract, was not
                                       disclosed, and approximately $600,000 in reimbursable monies were not
                                       returned to customer agencies in a timely manner.

                                       We recommended that the Regional Administrator:

                                       • Develop and implement a system of internal controls to ensure that
                                         procurement laws and regulations are followed and proper funds are used.

                                       • Establish and implement a system of internal controls to ensure that the
                                         Service Center employees perform their contract administration/
                                         management responsibilities in accordance with contract specifications
                                         and laws/regulations and recover any improper payments to contractors.

                                       • Develop and implement an effective system of internal controls for
                                         managing reimbursable monies in order to ensure that they are properly
                                         recorded, filed, and closed out in a timely manner.

                                       • Develop and implement an effective system of internal controls so that
                                         adequate disclosures are made in contract solicitations in order to assure
                                         the integrity of the procurement process.

                                       The Regional Administrator concurred with the findings and
                                       recommendations.



22 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

Acquisitions with the Office of the Chief Acquisition Officer
Report Number A070046/O/A/F08011, dated July 30, 2008

GSA’s Office of the Chief Acquisition Officer (OCAO) was established in June
2004 to strengthen GSA’s acquisition activities and assure that best value
acquisition services are delivered to Federal agency customers in support of
their missions while balancing an emphasis on compliance, ethics, and
integrity. The OCAO is responsible for supervising a variety of acquisition
activities, including: ensuring compliance with applicable laws, regulations
and policies; fostering full and open competition for contract awards; and
developing the acquisition workforce, and the workforce’s accountability for
acquisition decision-making. An operational contracting staff was also housed
in the OCAO.

Between 2002 and 2005, the OCAO operational contracting staff awarded
three contracts in support of OCAO initiatives to obtain and collect information
on the GSA acquisition workforce. The initiatives included the Acquisition
Career Management Information System (ACMIS), the Applied Learning
Center (ALC), and the Acquisition Workforce Study (AWS). On August 22,
2006, the Office of Inspector General received a hotline complaint from a
confidential source with concerns about whether GSA could rely on the AWS,
ALC, and ACMIS to achieve its goal of building and retaining an optimal
acquisition workforce. The complainant also expressed additional concerns
regarding the award and administration of the contracts. Our objectives were
to determine the validity of these allegations by addressing whether the
contracts were awarded and administered in accordance with acquisition
regulations, policies, and procedures.

The results of our review identified that policies and procedures were not
always adhered to during key phases in the award and administration of the
AWS, ALC, and ACMIS contracts. Of significance is the issue of contract
oversight. Contract files did not always include all required documents and
information was not always complete. Vendor payments were made without
adequate documentation, and deliverables were not received in accordance
with the contract. In addition, decisions made in the management of these
contracts adversely impacted the validity and usefulness of the end products.

The monetary impact of these contracts includes approximately $1.6 million
spent on the full development of the ALC, and more than $5 million expended
in support of the contract from the 2004 original launch until its final shutdown
in 2006 by the OCAO after numerous shutdowns over the course of its life due
to protests and other issues. Further, the ALC was not adequately evaluated
to ensure the integrity of the tool. In addition, the AWS, which cost $474,000,
was not usable for its original purposes and resulted in added costs of
approximately $14,350 due to a lack of adherence to the proposal



                                            April 1, 2008 – September 30, 2008 23
                                        Management Challenges



                                       Management Controls (continued)

                                       methodology. Other contract issues include improper funding related to Intra-
                                       agency Agreements, improper use of fiscal year funds on the ACMIS contract,
                                       and timeliness of AWS modifications.

                                       We expressed our concerns to the Chief Acquisition Officer (CAO) in June
                                       2007, and informed the CAO that we intended to recommend that the OCAO
                                       operational contracting staff be relocated to a more appropriate position
                                       within GSA. On October 15, 2007, GSA Order ADM 5440.606 was issued that
                                       abolished the OCAO operational contracting staff and its functions related to
                                       contracting and purchasing for the GSA Headquarters GM&A offices and
                                       transferred the functions to the Contracting Division, Office of Management
                                       Services.

                                       We recommended that the Chief Acquisition Officer:

                                       • Strengthen management controls in regard to oversight when awarding
                                         and administering contracts to ensure that contract files are in
                                         conformance with policies and procedures and that contract personnel
                                         adhere to the FAR and General Services Administration Acquisition
                                         Manual.

                                       • Ensure that appropriated funds are obligated and used in accordance with
                                         the FAR.

                                       • Determine the status of Intra-agency Agreement funds discussed in the
                                         report and take appropriate action.

                                       • Reassess controls on the disbursement of Intra-agency funds and, where
                                         necessary, strengthen controls to ensure that funds are properly disbursed.

                                       The Chief Acquisition Officer concurred with the findings and
                                       recommendations.

                                       Review of GSA’s Office of Congressional and Intergovernmental Affairs
                                       and the Office of Governmentwide Policy
                                       Report Number A070187/O/A/F08014, dated September 10, 2008

                                       On December 21, 2006, the GSA Administrator signed GSA Order
                                       ADM 5440.600, which established the Office of Congressional and
                                       Intergovernmental Affairs and Governmentwide Policy as one organization
                                       from two separate offices. The merger would align the two entities under an
                                       Associate Administrator, who would report directly to the Administrator. All
                                       current functions, positions, personnel, authorities, funds, equipment, and
                                       other resources would transfer to the new organization and the new
                                       organization would maintain a substructure consisting of the two entities.



24 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

However, on February 15, 2007, Congress signed Public Law 110-5, Revised
Continuing Appropriations Resolution 2007 that prohibited the merger without
the explicit approval of the Committees on Appropriations of the House of
Representatives and the Senate, and further continued appropriations
through the end of the fiscal year for the two entities to exist and operate
separately. In addition, on December 26, 2007, Congress passed the
Consolidated Appropriations Act, 2008, stating that no funds could be used
by GSA to reorganize its organizational structure without approval by the
Appropriations Committees through an operating plan change. Our initial
objectives were to assess the benefits of establishing the newly consolidated
group, including whether the consolidation would encumber administrative
and operational controls and fiscal processes. However, once Congress
disallowed the merger, we revised the objective to determine how GSA was
complying with the Congressional direction.

While we found no evidence that GSA actively implemented the consolidation
of the two offices after the Congressional enactment prohibited such action,
the Agency did not rescind the GSA Order establishing the merger until July
15, 2008, 17 months after Congressional disallowance. With the issuance of
the revised GSA Order, GSA has been in compliance with Public Law 110-5
and the 2008 Consolidated Appropriations Act, as we found no indication that
organizational funds had been intermingled. For future consideration,
however, GSA’s Office of General Counsel has interpreted the funding
restrictions as annual in nature, i.e. applying only for the duration of the fiscal
year. Further, Counsel issued an opinion that the provision of the
Consolidated Appropriations Act that prohibited GSA from using funds for
reorganization without prior Congressional approval must be narrowly
construed and only required GSA to notify the Appropriations Committees
regarding Agency reorganizational matters germane to the appropriations
process and within the jurisdiction of the Committees.

While we recognize Counsel’s opinion on the subject appropriations bills, in
our opinion, however, the bills’ intention is to provide a restriction on using
funds to reorganize the organizational structure. Thus, for future actions,
when management proposes organizational changes, they must heed the
restriction in the Consolidated Appropriations Act, 2008.

We recommended that the Associate Administrator, Office of Congressional
and Intergovernmental Affairs in accordance with applicable laws, ensure that
GSA notifies or obtains approval from Congressional appropriations
committees prior to implementing organizational changes. Management
generally concurred with the recommendation.




                                             April 1, 2008 – September 30, 2008 25
                                        Management Challenges



                                       Protection of Federal Facilities and Personnel
                                       Providing a safe, healthful, and secure environment for over 1 million workers
                                       and the visitors to over 8,600 owned and leased Federal facilities nationwide
                                       is a major multifaceted responsibility of GSA. The increased risks from
                                       terrorism have greatly expanded the range of vulnerabilities traditionally faced
                                       by building operations personnel. In March 2003, the Federal Protective
                                       Service (FPS) was transferred from GSA to the Department of Homeland
                                       Security (DHS). While FPS is no longer part of GSA, the Agency has a
                                       continual need to closely interact with security personnel due to GSA’s
                                       mission of housing Federal agencies. GSA and FPS/DHS operate a
                                       Memorandum of Agreement for obtaining services such as basic security for
                                       buildings, contract guards, law enforcement, background suitability
                                       determinations for contractors (including childcare center personnel), pre-
                                       lease security checks, occupant emergency plan support, and continuity of
                                       operations support. Ensuring that Federal employees have a secure work
                                       environment and that building assets are adequately safeguarded must
                                       remain a primary concern of GSA.

                                       Audit of PBS’s Controls Over Security of Building Information
                                       Report Number A070216/P/R/R08005, dated September 30, 2008

                                       A priority for the General Services Administration (GSA) is the physical
                                       protection of Federal employees, the visiting public, and its facilities. After the
                                       Alfred P. Murrah Federal Building bombing, GSA and other agencies reviewed
                                       GSA’s construction and security criteria to find ways to prevent such an
                                       occurrence in the future. There is a growing concern that unrestricted
                                       construction documents pose a vulnerability that could be exploited by
                                       terrorists or other criminal elements. In order to reduce the exposure to
                                       possible attacks or threats to GSA-controlled facilities, the Public Buildings
                                       Service (PBS) issued PBS Instructional Letter PBS-IL-01-3, entitled,
                                       “Dissemination of Sensitive but Unclassified Paper and Electronic Design and
                                       Construction Documents,” dated July 30, 2001. Sensitive but Unclassified
                                       (SBU) information was defined by the policy as drawings, plans, and
                                       specifications for new or current GSA-controlled space, produced specifically
                                       as contract and solicitation documents for construction purposes; material
                                       used to define structural analysis for facilities or for installation of security
                                       systems; or any documents that would disclose information about security
                                       guards or security systems of any kind. The objectives of this policy were to 1)
                                       diminish the potential that construction or security related documents (either
                                       paper or electronic) will be used by a person or persons with an interest in
                                       causing harm to persons or property, and 2) not impede the availability of
                                       necessary information to those with legitimate needs, such as the
                                       professional design community, contractors, professional schools and forums,
                                       and states, cities, and towns where GSA has facilities.




26 Semiannual Report to the Congress
 Management Challenges



Protection of Federal Facilities and Personnel (continued)

In March 2002, GSA enhanced its policy by issuing GSA Order PBS 3490.1
(PBS 3490.1), entitled, “Document Security for Sensitive but Unclassified
Paper and Electronic Building Information.” The objectives of the policy were
essentially the same as above, with the principles of this policy being: 1) only
give the information to those who have a need to know, 2) keep records of
who got the information, and 3) safeguard the information during use and
destroy it properly after use.

Since May 2007, there have been two examples of security breaches over
SBU information, where building drawings were found in public places. In
another instance, a control weakness was identified in a PBS database
containing SBU information. Given these security incidents, and the concern
about unrestricted construction documents, the audit objective was to
determine whether PBS has adequate controls in place to protect sensitive
building information.

PBS needs to improve its implementation of controls over sensitive building
information to reduce the risk of inappropriate disclosure that may result in
harm to people or property. Overall, implementation of the controls to meet
the requirements for safeguarding sensitive building information varied widely.
The oversight practices of PBS project managers and contracting officers to
implement PBS security policies were inconsistent. Our analysis indicated
that the compliance of SBU requirements by two of the regions was
significantly higher than that of the third region. Also, while we found the
majority of the building drawings were properly stored (88 percent), only 9
percent of the removable electronic media containing SBU were encrypted as
required by an Office of Management and Budget memorandum on
“Protection of Sensitive Information.”

Inconsistencies were especially evident in the contract files, as many
contracts did not include language that would obligate contractors to use
reasonable care to protect sensitive building information. The primary non-
government users of SBU building information are the contractors that
perform the construction related work required by PBS. It is imperative that
these contractors have an understanding of PBS’s expectations for
safeguarding sensitive building information when handling applicable SBU
documents. As such, GSA should include the contractors’ responsibilities for
safeguarding sensitive building information in the contract, including informing
their subcontractors working on GSA construction projects of their
responsibilities. PBS should also use contractual language to establish
penalties for noncompliance since there currently are no statutory penalties
for failing to properly safeguard SBU building information. If a security breach
does occur and these security requirements are not included in the contract,
GSA’s ability to take action against the negligent party will be limited. Finally,
while the majority of PBS staff interviewed was aware of PBS 3490.1, few had



                                             April 1, 2008 – September 30, 2008 27
                                        Management Challenges



                                       Protection of Federal Facilities and Personnel (continued)

                                       received formal training in the requirements and how to implement them
                                       which could have contributed to the inconsistencies we observed.

                                       We recommended that the PBS Commissioner:

                                       • Incorporate PBS 3490.1 requirements directly into the boilerplate
                                         Solicitation for Offers and contracts for architect and engineering,
                                         construction, and lease construction contracts.

                                       • Require contractors to include PBS 3490.1 requirements in their
                                         subcontracts.

                                       • Develop a course of action to be taken when contractors do not fulfill their
                                         contractual obligations regarding the protection of SBU information.

                                       • Ensure officials are provided training on PBS 3490.1, to include encryption
                                         software applications available to PBS project personnel.

                                       • Implement a system of controls to ensure that PBS 3490.1 requirements
                                         are being followed by PBS project teams.

                                       The PBS Commissioner concurred with the report findings and
                                       recommendations.




28 Semiannual Report to the Congress
Promoting and Protecting Integrity



   GSA is responsible for providing working space for one million Federal
   employees. The Agency also manages the transfer and disposal of excess
   and surplus real and personal property and operates a government-wide
   service and supply system. To meet the needs of customer agencies, GSA
   contracts for billions of dollars worth of equipment, supplies, materials, and
   services each year. We conduct reviews and investigations in all these areas
   to ensure the integrity of the Agency’s financial statements, programs, and
   operations, and that the taxpayers’ interests are protected. In addition to
   detecting problems in these GSA programs and operations, the OIG is
   responsible for initiating actions to prevent fraud, waste, and abuse and to
   promote economy and efficiency. When systemic issues are identified during
   investigations, they are shared with GSA management for appropriate
   corrective actions. During this period, criminal, civil, and other monetary
   recoveries totaled more than $18.1 million.

   Significant Civil Actions and Criminal Investigations
   W.W. Grainger Pays $6 Million to Resolve False Claims Act Allegations
   W.W. Grainger, Inc. (WWG), paid the United States $6 million to settle
   allegations in a qui tam action that it violated Trade Agreements Act (TAA)
   provisions of its Multiple Award Schedule contract by overcharging GSA
   customers on “sourced items.”

   The settlement resolves allegations that WWG sold government agencies
   products from countries that do not have reciprocal trade agreements with the
   United States, such as China and Taiwan. WWG was required by its contract
   with GSA and the TAA to prevent such items from being offered for sale to
   U.S. government agencies. This settlement also resolves allegations that
   WWG sold government agencies sourced (special order) items at a markup
   greater than that allowed by WWG’s contract with GSA.

   The majority of the settlement was reparation for the violations of the TAA that
   were discovered by GSA OIG during a post-award audit of WWG’s contract
   with GSA. The overcharges on sourced items were identified by a qui tam
   action that was filed under the provisions of the False Claims Act by a former
   WWG employee (the “relator”). The relator received $70,400 of the total
   recovery as a statutory award. Under qui tam provisions of the False Claims
   Act, private parties can file actions on behalf of the United States and receive
   a portion of the proceeds of a settlement or judgment awarded against the
   defendant.

   The settlement resulted from a joint investigation with the Department of
   Justice’s Civil Division and the U.S. Attorney’s Office for the Eastern District
   of Wisconsin.

   $1.37 Million Civil Settlement
   Computer Sciences Corporation (CSC) agreed to pay the government
   $1,370,000 to settle allegations that it asked for and received improper

                                                April 1, 2008 – September 30, 2008 29
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       payments on technology contracts with government agencies. The
                                       Department of Justice announced this settlement on May 13, 2008.

                                       The complaint alleged that CSC knowingly solicited and/or received payments
                                       of money and others things of value, known as alliance benefits, from a
                                       number of companies with whom it had global alliance relationships. The
                                       government intervened in these actions because the alliance relationships
                                       and resulting alliance benefits amounted to kickbacks and undisclosed
                                       conflict of interest relationships in violation of contractual provisions and the
                                       applicable provisions of the Federal Acquisition Regulation.

                                       The action against CSC is part of a larger, ongoing investigation. The
                                       settlement resulted from an investigation by the Department of Justice,
                                       Commercial Litigation Branch, Civil Division; U.S. Attorney’s Office in Little
                                       Rock, Arkansas; Department of Energy OIG; Defense Criminal Investigative
                                       Service; Postal Service OIG; NASA OIG; Army Criminal Investigation
                                       Command; Defense Contract Audit Agency; and GSA OIG.

                                       $960,000 Civil Settlement
                                       On April 10, 2008, Protective Products International, Inc. (Protective Products),
                                       agreed to pay the Government $960,000 to resolve allegations that it violated
                                       the False Claims Act in connection with its role in the manufacture and sale
                                       of defective Zylon bulletproof vests to federal, state, local, and tribal law
                                       enforcement agencies.

                                       The investigation revealed that Protective Products knew that the Zylon
                                       manufactured by Toyobo Corporation (Toyobo) was defective and degraded
                                       quickly when exposed to heat, light, and humidity. It was also found that
                                       Protective Products knew that Toyobo provided them with “Red Thread” Zylon,
                                       which was weaker than standard Zylon. This settlement was the result of an
                                       ongoing investigation by the Department of Justice’s Civil Division, the U.S.
                                       Attorney’s Office for the District of Columbia, the GSA OIG, the Defense
                                       Criminal Investigative Service, the Army Criminal Investigative Division, the
                                       U.S. Agency for International Development OIG, the Air Force Office of
                                       Special Investigations, and the Department of Energy OIG.

                                       $307,500 Civil Settlement
                                       On May 1, 2008, General Dynamic Information Technology (GDIT) agreed to
                                       pay the government $307,500 for submitting false claims. The Government
                                       alleged that from March 2001 to February 2004, GDIT submitted false bills
                                       for payment for services rendered by the Institute of Scientific Research at
                                       Boston College for computer and network technical support. The investigation
                                       disclosed that GDIT submitted invoices and received payment from the
                                       Government for hours billed but not worked.



30 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   The Government also alleged that from October 2003 to September 2007,
   GDIT submitted bills for services that were rendered by GDIT at Robins
   Air Force Base, Georgia, for certain Software/Systems Engineers. The
   investigation disclosed that GDIT billed the Government for services at a
   billing rate designated for work being performed at the contractor’s worksite,
   a higher labor rate, when the work was actually being performed at the
   Government’s worksite.

   The settlement agreement was the result of a joint investigation conducted
   by the GSA OIG and the Department of the Air Force, Office of Special
   Investigations.

   President of Pacific General, Inc., Pleads Guilty to Conspiracy
   An investigation was initiated when the Department of Interior OIG requested
   assistance in the review of criminal charges and suspension/debarment
   actions against Pacific General, Inc. (PGI). The investigation substantiated the
   charges and the president and vice president of PGI were indicted by a grand
   jury for conspiracy, false claims, mail fraud, and false statements against the
   government. On April 21, 2008, the president of PGI pled guilty to these
   charges and was sentenced on August 11, 2008, to 4 months’ house arrest
   and 5 years’ probation, and ordered to pay restitution in the amount of
   $435,297. On May 5, 2008, the vice president of PGI pled guilty to misprision
   of a felony and was sentenced to 5 years’ probation and ordered to pay
   restitution in the amount of $69,731.

   On May 8, 2008, President Bush signed the consolidated Natural Resources
   Act of 2008, Public Law No. 110-229, authorizing the Secretary of the Interior
   to spend $1.4 million to pay the subcontractors of PGI for work performed and
   not paid for during 2002 and 2003 under a GSA indefinite delivery indefinite
   quantity contract.

   GSA Contractor Pleads Guilty to Product Substitution and Filing False
   Claims
   A joint investigation with the Defense Criminal Investigative Service was
   initiated when BJC Sales was alleged to have filed false claims and
   substituted products under a GSA contract. The company, its owner, his wife,
   and his daughter had previously been placed on the Excluded Parties List
   System for a term of 10 years in October 2003 by the Defense Logistics
   Agency.

   GSA awarded BJC Sales a Standing Quote for Purchase (SQP) on February
   18, 2004, with an expiration date of February 28, 2005. Under this GSA SQP,
   BJC Sales shipped a total of 26,398 smoke detectors to various U.S.
   Government entities and received payments totaling $131,990. In their
   response to the Request for Quotation BJC Sales stated they would be


                                              April 1, 2008 – September 30, 2008 31
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       providing “UL 217” (Underwriters Laboratory) compliant Kidde Safety Product
                                       smoke detectors. The investigation confirmed that BJC Sales had affixed
                                       counterfeit UL labels to the detectors so that they appeared to be UL 217
                                       compliant.

                                       The investigation revealed that the owner’s wife presented a letter to GSA
                                       stating that BJC Sales would supply UL tested smoke detectors, placed
                                       counterfeit UL labels on the smoke detectors to falsify their authenticity, and
                                       submitted a letter to a Military Academy fictitiously and falsely representing
                                       the company and the owner to avoid detection for being debarred. The owner,
                                       his wife, and his daughter pled guilty to making false statements and mail
                                       fraud. The owner was sentenced to 3 years’ 3 months’ incarceration and
                                       3 years’ supervised release, and ordered to pay restitution in the amount of
                                       $828,133. The owner’s wife was sentenced to 6 months’ incarceration, 6
                                       months’ home confinement, and 3 years’ supervised release. The owner’s
                                       daughter was sentenced to 4 months’ confinement, 4 months’ home
                                       detention, and 3 years’ supervised probation, and ordered to pay restitution in
                                       the amount of $601,771.

                                       GSA Employee Pleads Guilty to Theft of Government Property
                                       An investigation was initiated when it was reported that an anonymous
                                       telephone call was received from an individual requesting access codes for
                                       a Dell laptop computer that he purchased from a GSA employee. The
                                       investigation found that a GSA employee stole a new Dell laptop computer
                                       along with all of its components (property of the U.S. Government valued at
                                       $2,402) from the Denver Federal Center and sold it for $1,000. The employee
                                       pled guilty to theft of government property and on May 6, 2008, was
                                       sentenced to 1 year of probation and ordered to pay restitution in the amount
                                       of $2,402.

                                       GSA Employee Found Guilty of Receiving Child Pornography
                                       An investigation was initiated based on information received from U.S. Im-
                                       migration and Customs Enforcement (ICE) stating that it received a referral
                                       indicating the National Central Bureau of the Federal Republic of Germany for
                                       the I.C.P.O. – Interpol had reported that an Internet site owner had self-
                                       reported his website was being used to traffic child pornography.
                                       One of the provided IP addresses was identified as belonging to GSA.

                                       The investigation revealed that a GSA employee was using his GSA computer
                                       to view child pornography while on official duty in a Federal building. On June
                                       11, 2008, he was found guilty by a federal jury for receiving child pornography.
                                       On October 24, 2008, he was sentenced to 4 years’ confinement, 5 years’
                                       supervisory release, and fined $25,000.




32 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   Fire Department Volunteer Sentenced for Theft of Government Property
   An investigation was initiated when it was reported that theft of Federal
   property from the West Virginia State Agency for Surplus Property facility
   was occurring. Information was received that the former administrator of the
   Berwind Volunteer Fire Department was illegally acquiring, using, and
   possibly selling Federal surplus property.

   The investigation determined the former administrator used the status of the
   Fire Department to create a fictitious branch of the Fire Department to
   acquire equipment not made available to the general public. He denied the
   Fire Department access to this equipment, sold the equipment on the open
   market, and used the proceeds to purchase more equipment through the
   Federal Surplus Property Program. Through this scheme, he managed to
   acquire property with an original acquisition value in excess of $4,000,000.

   On July 21, 2008, he was sentenced to 2 years’ incarceration and 3 years of
   supervised probation for theft of government property and money laundering.
   He was also ordered to pay restitution in the amount of $113,578, and to
   surrender all Federal Surplus Property located on and around his property.
   An inventory identified approximately 100 pieces of Federal surplus property
   with an original acquisition value of $1,800,807.

   This is a joint investigation with the Defense Criminal Investigative Service
   (DCIS), the Internal Revenue Service (IRS), the Federal Bureau of
   Investigation (FBI), the West Virginia Fire Marshall’s Office, the West Virginia
   State Police, the McDowell County Sheriff’s Office, the Mercer County
   Sheriff’s Office, and the West Virginia State Legislature Commission for
   Special Investigations.

   Owner of Vehicle Repair Shop Sentenced for Filing False Claims
   An investigation was initiated when the GSA Fleet reported that Ray’s Service
   Center (RSC) may have submitted fraudulent fleet vehicle repair claims. The
   investigation determined the owner and operator of RSC routinely placed
   telephone claims to the GSA Maintenance Control Center (MCC) for approval
   and confirmation of repairs to GSA Fleet vehicles assigned to Shaw Air Force
   Base although the repairs were not being completed at RSC.

   It was determined that in approximately one year, the owner received $25,000
   from GSA as a result of false repair claims submitted to the MCC for GSA
   vehicles assigned to the Air Force base. He pled guilty to theft of government
   property and was sentenced on May 13, 2008, to 5 years’ probation and
   ordered to pay restitution in the amount of $26,472.

   Illegal Aliens Permitted to Work on $45 million Federal Project
   A joint investigation with the Department of Labor OIG, Social Security
   Administration OIG, and ICE was initiated when it was alleged that illegal


                                               April 1, 2008 – September 30, 2008 33
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       immigrants were working on a $45 million Federal building renovation project
                                       in Omaha, Nebraska. The investigation revealed that Tufly Drywall (a Caddell
                                       Construction subcontractor) knowingly hired illegal immigrants.

                                       The subcontractor allowed the immigrants to bypass GSA security
                                       requirements to work on this project by submitting false names and social
                                       security numbers on their certified payrolls. To date 10 subcontractor
                                       employees were identified as being illegal immigrants working on the Federal
                                       building. Of these 10 individuals, 6 were indicted and 4 were arrested by ICE
                                       for immigration-related violations. Additionally, three Tufly Drywall officials
                                       were indicted for conspiracy to harbor illegal immigrants. Of the 9 individuals
                                       above who were indicted, 6 of them were convicted; and 2 of the 6 convicted
                                       were sentenced during this reporting period. Both of those sentenced
                                       received 2 years’ confinement, 1 year’s probation, and a fine. The
                                       investigation is ongoing.

                                       Contractors Sentenced for Conspiracy to Commit Mail Fraud
                                       An investigation was initiated when the president of PM Services Company
                                       (PMS) reported that she fired an employee who violated the Anti-Kickback
                                       Act by securing a job with OAI Associates (one of PMS’s competitors) while
                                       under PMS’s employment. The investigation disclosed the employee’s laptop
                                       confirmed that he was receiving payments from various subcontractors used
                                       by PMS. On February 11, 2008, he pled guilty to conspiracy and attempting to
                                       evade taxes. A sentencing date has been scheduled for October 30, 2008.

                                       During this reporting period, four of PMS’s subcontractors were sentenced
                                       after pleading guilty to conspiracy. On June 26, 2008, the owner of Air
                                       Specialties, Inc., was sentenced to 5 years’ probation, ordered to pay
                                       restitution in the amount of $32,728, and fined $2,000. On July 10, 2008, the
                                       owner of Applied Power Group, Inc., was sentenced to 6 months’ home
                                       detention, ordered to pay restitution in the amount of $58,590, and fined
                                       $3,000. On July 22, 2008, a Maryland-based contractor was sentenced to
                                       120 days’ home confinement, 5 years’ probation, and ordered to pay
                                       restitution in the amount of $23,952. On August 7, 2008, the owner of
                                       Precision Mechanical was sentenced to 60 days in prison, 120 days’ home
                                       detention, 5 years’ probation, and ordered to pay restitution of $84,333.

                                       Telecommunications Fraud
                                       The OIG continues to be a principal participant in the New York Electronic
                                       Crimes Task Force (NYECTF), which has been investigating
                                       telecommunications fraud primarily involving Federal facilities within
                                       the New York metropolitan area. GSA is the principal provider of
                                       telecommunications services for these facilities. NYECTF members
                                       include the Secret Service, Department of Defense, Department of Justice,



34 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   New York City Police Department, and telecommunications industry
   representatives.

   In a previously reported investigation involving the owner of a T-Mobile dealer
   and six of his employees, three former salespersons were sentenced
   during this reporting period. On June 3, 2008, one former salesperson was
   sentenced to 5 years’ probation and ordered to pay $400,000 restitution after
   having pled guilty to conspiracy to commit wire fraud, conspiracy to commit
   mail fraud, and aggravated identity theft. The investigation revealed this
   individual was involved in a scheme whereby she fraudulently obtained the
   identities of T-Mobile cellular telephone customers and then used this
   information to illegally obtain, without the consent or knowledge of the victims,
   large numbers of mobile handsets from T-Mobile.

   On August 8, 2008, two former salespersons were each sentenced to 3 years’
   probation and ordered to pay a $300 special assessment fee after each pled
   guilty to a criminal Information charging them with conspiracy to commit mail
   fraud. The investigation revealed that they were involved in a scheme whereby
   they fraudulently renewed customer service contracts and activated additional
   telephone lines without the knowledge and consent of those customers.

   In another previously reported investigation involving J.P. Morgan Chase
   Bank, it was revealed that four individuals schemed to fraudulently make
   wire transfers out of bank accounts maintained for several United Nations
   Missions by making requests on purported letterhead from the victim
   countries. These transactions were not authorized. During this reporting
   period, on September 9, 2008, the last of these four individuals was
   sentenced to 4 years’ incarceration, 5 years’ supervised release, and ordered
   to pay $245,174 restitution after having pled guilty to the charge of conspiracy
   to commit bank fraud.

   GSA Voyager Fleet Charge Card Abuse
   The GSA OIG has an ongoing proactive investigative project to identify and
   investigate fraud associated with the misuse of GSA-issued Voyager Fleet
   charge cards. During this period, 21 individuals pled guilty, 20 individuals
   were indicted, and 11 individuals were arrested in connection with cases
   arising out of fleet charge card investigations. These cases involved
   thousands of dollars of fraudulent activities associated with this program.

   Suspension and Debarment Initiative
   GSA has a responsibility to ascertain whether the people or companies it
   does business with are eligible to participate in federally-assisted programs
   and procurements, and that they are not considered “excluded parties.”
   Excluded parties are individuals and companies debarred, suspended,
   proposed for debarment, or declared ineligible to receive contracts by a


                                               April 1, 2008 – September 30, 2008 35
                              Promoting and Protecting Integrity



                                       Suspension and Debarment Initiative (continued)

                                       Federal agency. The Federal Acquisition Regulation authorizes an agency to
                                       suspend or debar individuals or companies for the commission of any offense
                                       indicating a lack of business integrity or business honesty that directly affects
                                       the present responsibility of a government contractor or subcontractor. The
                                       OIG has made it a priority to process and forward referrals to GSA, so GSA
                                       can timely ensure that the government does not award contracts to
                                       individuals or companies that lack business integrity or honesty.

                                       During this reporting period, the OIG made 116 referrals for consideration of
                                       suspension/debarment to the GSA Office of Acquisition Policy. GSA issued
                                       110 suspension and debarment actions based on current and previous OIG
                                       referrals.

                                       Integrity Awareness
                                       The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                       employees on their responsibilities for the prevention of fraud and abuse and
                                       to reinforce employees’ roles in helping to ensure the integrity of Agency
                                       operations. This period, we presented 29 briefings attended by 722 regional
                                       and Central Office employees. These briefings explain the statutory mission of
                                       the OIG and the methods available for reporting suspected instances of
                                       wrongdoing. In addition, through case studies, the briefings make GSA
                                       employees aware of actual instances of fraud in GSA and other Federal
                                       agencies and thus help to prevent their recurrence. GSA employees are the
                                       first line of defense against fraud, abuse, and mismanagement. They are a
                                       valuable source of successful investigative information.

                                       Hotline
                                       The OIG Hotline provides an avenue for employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in GSA-
                                       controlled buildings encourage employees to use the Hotline. We also use
                                       our FraudNet Hotline platform to allow Internet reporting of suspected
                                       wrongdoing. During this reporting period, we received 1,508 Hotline contacts.
                                       Of these contacts, 268 Hotline cases were initiated. In 154 of these cases,
                                       referrals were made to GSA program officials for review and action as
                                       appropriate, 49 were referred to other Federal agencies for follow up, 48 were
                                       referred for OIG criminal/civil investigations or audits, and 17 did not warrant
                                       further review.




36 Semiannual Report to the Congress
Governmentwide Policy Activities



   We regularly provide advice and assistance on governmentwide policy
   matters to the Agency, as well as to other Federal agencies and to
   committees of Congress. In addition, as required by the Inspector General
   Act of 1978, we review existing and proposed legislation and regulations to
   determine their effect on the economy and efficiency of the Agency’s
   programs and operations and on the prevention and detection of fraud and
   mismanagement. Because of the central management role of the Agency in
   shaping governmentwide policies and programs, most of the legislation and
   regulations reviewed invariably affect governmentwide issues in areas such
   as procurement, property management, travel, and government management
   and information technology systems.

   Internal Evaluations
   • Forensic Auditing Initiative. Over the last several months, the OIG Office
     of Internal Evaluation and Analysis (JE) has placed high emphasis on the
     establishment and development of a multi-disciplinary team devoted to the
     identification, assessment, and prosecution of crimes against the Agency,
     with a concentration on procurement and contract fraud. Given the
     substantial and increasing use of contracting for services and support by
     Federal agencies, the potential for procurement fraud has rapidly escalated.
     The Forensic Auditing Initiative (FAI) will utilize innovative strategies that
     enhance the traditional audit and investigative practices and procedures to
     detect fraudulent activities, assess situations when a fraud has taken place,
     and produce evidence meeting the standards required by criminal courts.

     During the period from April 1, 2008, to September 30, 2008, the FAI
     concentrated its efforts on securing adequate staffing and resources to
     support a unit composed of auditors, management and program analysts,
     and investigators. In addition, the unit focused on the acquisition of
     recommended training in forensic auditing and the identification of relevant
     databases to be used in identifying fraudulent activities.

   • Self-Assessment Studies. JE also designed and field-tested an electronic
     instrument to be used to monitor compliance and uniformity among the
     regional offices with investigative policies and practices. The electronic
     questionnaire gathers data from senior investigative staff (SACs and ASACs)
     on a wide variety of operational mandates, including: significant cases,
     investigative procedures, case file documentation, maintenance of
     evidence, agent training and professional development, firearms, personnel
     issues, liaison relationships, and equipment.

     The instrument, following drafting, was given extensive review by senior
     investigators prior to deployment of a pilot version and was tested in the
     field at one of the OIG regional offices not participating in the review of the
     draft. The field test revealed a need to enhance narrative description to
     explain what might appear to be disparities from recommended or
     mandated practices. JE is now finalizing the content and organization of
     the instrument following the field test and expects the instrument to be in


                                               April 1, 2008 – September 30, 2008 37
                               Governmentwide Policy Activities



                                       Internal Evaluations (continued)

                                         final form and available for distribution to all regional offices during the first
                                         half of FY 2009.

                                       • Statistical Support to Audits and Investigations. During the last half of
                                         FY 2008, JE upgraded its staffing to include a senior statistician to provide
                                         assistance in scientific sampling and database analysis to the OIG auditors
                                         and investigators. During this period, statistical methods have been applied
                                         to such varied areas of concern as purchase card usage, fleet vehicle use
                                         and Voyager charge card use, leased office space for Federal employees,
                                         procurement fraud, suspension and debarment databases, and wage rates
                                         on construction projects. In addition, assessments of contracting tools,
                                         such as the wage pricing tool and database, have also been a focus of
                                         statistical review.

                                       Interagency Committees and Working Groups
                                       We participated in a number of interagency committees and working groups that
                                       address cross-cutting and governmentwide issues:

                                       • National Procurement Fraud Task Force. The Inspector General (IG) is
                                         the Vice-Chair of the National Procurement Fraud Task Force (Task Force),
                                         which was established in October 2006 to promote the prevention, early
                                         detection, and prosecution of procurement fraud against the United States.
                                         Members of the Task Force include OIGs, Federal law enforcement
                                         agencies, defense-related agencies, and the Department of Justice. The
                                         Task Force has effectively bolstered the investigation of fraud, waste, and
                                         abuse in Federal contracts through increased coordination among the
                                         various disciplines affected by procurement fraud. The IG chairs two Task
                                         Force committees, the Legislation Committee and the Information Sharing
                                         Committee.

                                         As part of the Task Force, the IG co-hosted the first-ever National
                                         Procurement Fraud Conference, Effective Programs and Strategies in
                                         Combating Procurement Fraud, which took place in Richmond, Virginia,
                                         from September 9-11, 2008. More than 30 distinguished presenters from
                                         both inside and outside the Federal system shared their knowledge and
                                         expertise in the three-day program that addressed issues and challenges
                                         relating to government fraud. There were over 500 attendees from the
                                         Inspector General community and other Federal entities involved in
                                         government procurement and combating fraud.

                                       • President’s Council on Integrity and Efficiency/Executive Council on
                                         Integrity and Efficiency (PCIE/ECIE). The IG is a member of several
                                         PCIE committees including the Homeland Security Roundtable, the Human
                                         Resources Committee, and the Investigations Committee. The Homeland
                                         Security focus of the Roundtable was a springboard for a review of the
                                         Federal Government’s practices during the Gulf Coast Hurricane Recovery.


38 Semiannual Report to the Congress
Governmentwide Policy Activities



   Interagency Committees and Working Groups (continued)

     The mission of the Human Resources Committee is to provide educational
     opportunities for members of the PCIE and ECIE communities and to
     assist in ensuring the development of competent personnel. The purpose of
     the Investigations Committee is to advise the Inspector General community
     on issues involving investigative functions, establish investigative
     guidelines, and promote best practices.

     • PCIE Federal Audit Executive Council Information Technology
       Committee. The former AIGA, during his tenure with the GSA OIG, was
       the co-chair for the Information Technology (IT) Committee under the
       PCIE Federal Audit Executive Council (FAEC) and continues as co-chair
       for the Committee while holding a similar position with another
       organization. The Committee is responsible for leading discussion and
       reaching consensus among all of the OIGs regarding a myriad of IT
       issues. Our Information Technology Audit Office provides both technical
       and administrative support to the Committee. Currently, the Committee is
       providing leadership and technical support on three important initiatives:
       (1) sponsoring consolidated comments from the Federal IG community
       to the U.S. Government Accountability Office regarding updates to its
       Federal Information Systems Controls Manual, including changes
       requested by IT auditors; (2) conveying to the Office of Management and
       Budget (OMB) “lessons learned” across the Federal IG community with
       annual reporting required by the Federal Information Security
       Management Act, including feedback on the standardized reporting
       template provided by OMB; and (3) advocating an amendment of the
       Consolidated Appropriations Act to resolve concerns raised by the IG
       community regarding previous stipulations on reviews of Agencies’
       privacy programs and controls.

     • FAEC Contracting Committee. The AIGA and the Deputy Assistant
       Inspector General, Acquisition Programs Audit Office, participate in the
       FAEC Contracting Committee, created in December 2007. This
       Committee provides a forum to share information and coordinate
       reviews of significant contract and procurement community issues of
       interest across the IG community and Federal Government. The
       Committee also proposes the development and recommendation of best
       practices to be used by IGs to address contracting issues.

   • TeamMate Technical Support Group. Our TeamMate Technical Support
     Group participates in the TeamMate Federal Users Group and the CCH
     TeamMate Users Group to discuss concerns and new challenges facing
     TeamMate users. TeamMate is an automated audit paperwork management
     system that strengthens the audit process and increases efficiency.

   Legislation, Regulations, and Subpoenas
   During this reporting period the OIG reviewed 200 legislative matters and
   9 proposed regulations. The OIG also issued 26 subpoenas.

                                             April 1, 2008 – September 30, 2008 39
                               Professional Assistance Services



                                       Government Auditing Standards prohibit Federal audit organizations from
                                       performing certain types of management consulting projects because they
                                       may impair the independence of the auditors when performing subsequent
                                       audit work in the same area. To maintain our independence when working
                                       closely with GSA management, we carefully assess our services to ensure
                                       compliance with the standards. As allowed under the standards, we
                                       participate in Agency improvement task forces, committees, and working
                                       groups in an observer or advisory capacity.

                                       Task Forces, Committees, and Working Groups. The OIG provides advice
                                       and counsel to GSA while monitoring ongoing Agency initiatives. Our
                                       representatives advise management at the earliest possible opportunity of
                                       potential problems, help ensure that appropriate management controls are
                                       provided when installing new or modifying existing Agency systems, and offer
                                       possible solutions when addressing complex financial and operational issues.

                                       Our direct participation with the Agency on task forces, committees, and
                                       working groups allows us to contribute our expertise and advice, while
                                       improving our own familiarity with the Agency’s rapidly changing systems. We
                                       nevertheless maintain our ability to independently audit and review programs.
                                       Our participation on task forces is typically as a nonvoting advisory member.

                                       Some areas in which we have been involved this period include:

                                       • Multiple Award Schedule Working Group. The Multiple Award Schedule
                                         (MAS) Working Group was established as a result of an OIG report
                                         released in August 2001 relating to MAS contracting pricing practices. The
                                         Working Group is primarily comprised of members of the Federal
                                         Acquisition Service (FAS) and the OIG, with representation also from the
                                         Office of the Chief Acquisition Officer and other Agency ad hoc members.
                                         The Working Group has served as an effective institutionalized
                                         communications channel for both broad policy issues and discrete issues
                                         having to do with particular contracts or reviews.

                                         The Working Group has had several areas of focus, including preaward
                                         contract reviews and MAS negotiations issues. The Working Group has
                                         developed guidance to MAS contracting officers (COs) regarding the
                                         performance and use of preaward MAS contract reviews. Further, the
                                         Working Group has reinvigorated the process by which FAS and the OIG
                                         collaboratively select and commence preaward reviews of vendors, and
                                         has built into this process a specific mechanism for COs to request reviews
                                         of particular vendors. The Working Group has focused on issuing guidance
                                         to COs regarding negotiation objectives and discrete negotiation issues for
                                         MAS contract awards. The Working Group also provided input to FAS in its
                                         efforts to upgrade or enhance pricing performance measures on MAS
                                         contracts.

                                         During FY 2008, at the request of FAS, the OIG’s Contract Audit Office
                                         provided training sessions to FAS contracting officers, entitled,

40 Semiannual Report to the Congress
Professional Assistance Services



     “Understanding the Auditor’s Role in the MAS Procurement Process,”
     which included topics such as the preaward MAS audit process, types of
     reviews conducted, the auditor’s role in MAS contract negotiations, and
     typical preaward review findings. The Contract Audit Office also made
     presentations, at FAS’s request, to MAS vendors and FAS COs at several
     FAS Industry Day meetings. The OIG developed the presentations to
     educate MAS contractors about the audit process and assist them in
     understanding how to be in compliance with their MAS contract
     requirements.

     In further educational efforts, the former GSA OIG Assistant Inspector
     General for Auditing made a presentation at the request of the MAS
     Advisory Panel highlighting deficiencies in MAS vendor proposals identified
     in reviews performed by the Office of Audits. A former GSA Administrator
     established this Panel to examine the “most favored customer” and price
     reduction provisions of the MAS program. The presentation included review
     results showing MAS vendors were not offering the Government “most
     favored customer” pricing the majority of the time, and in many cases, the
     vendor’s offers to GSA were not accurate, current, and complete.

   • GSA IT Governance Groups. Audit representatives participate as
     nonvoting members on three of GSA’s major IT governance teams and
     attend key leadership forums and committee meetings. The Information
     Technology Architecture Planning Committee defines the standards for
     GSA’s information technology in support of business goals and at the
     direction of the Information Technology Council (ITC). The ITC, comprised
     of senior IT staff members from the Office of the Chief Information Officer
     and GSA services, staff offices, and regions collaboratively explores and
     determines actions needed to ensure that IT decisions have a sound
     business and IT investment basis. Senior audit representatives also
     participate in meetings of the Business Systems Council, a senior
     management forum chaired by the Deputy Administrator. The Business
     Systems Council makes decisions regarding major IT investments in
     conjunction with GSA’s Performance Management process, the Human
     Capital Planning process, the IT Capital Planning and Investment process,
     and ongoing business process changes for the Agency.

   • Single Audit Act Activities. The Single Audit Act established uniform
     audit requirements for state and local governments receiving Federal
     awards. The non-Federal entities that receive Federal awards under more
     than one Federal program are required to undergo a single audit to
     prevent duplicate audits and inefficiencies. Each Federal agency monitors
     the non-Federal entity’s use of awards provided by the Agency, and
     assesses the quality of the audits conducted relative to its program. The
     OIG monitors these activities primarily as they relate to the personal
     property disposal program.



                                             April 1, 2008 – September 30, 2008 41
                      Statistical Summary of OIG Accomplishments



                                       Audit Reports Issued
                                       The OIG issued 66 audit reports during this reporting period. The 66 reports
                                       contained financial recommendations totaling $359,652,851 including
                                       $355,064,515 in recommendations that funds be put to better use and
                                       $4,588,336 in questioned costs. Due to GSA’s mission of negotiating
                                       contracts for governmentwide supplies and services, most of the savings from
                                       recommendations that funds be put to better use would be applicable to other
                                       Federal agencies.

                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring
                                       management decisions during this period, as well as the status of those
                                       audits as of September 30, 2008. There were 10 reports more than six
                                       months old awaiting management decision as of September 30, 2008. Table 1
                                       does not include 2 reports issued to another agency this period. Table 1 also
                                       does not include 4 reports excluded from the management decision process
                                       because they pertain to ongoing investigations.




                       Table 1. Management Decisions on OIG Audits

                                                                       Reports with                Total
                                                    Number of            Financial               Financial
                                                     Reports         Recommendations         Recommendations
   For which no management decision
   had been made as of 04/01/2008
    Less than six months old                             29                  16                 $108,665,006
    Six or more months old                                4                   4                 $364,489,084
   Reports issued this period                            64                  32                 $359,652,851
   TOTAL                                                 97                  52                 $832,806,941

   For which a management decision
   was made during the reporting period
    Issued prior periods                                 22                  12                 $114,216,519
    Issued current period                                36                  21                 $238,056,670
   TOTAL                                                 58                  33                 $352,273,189

   For which no management
   decision had been made
   as of 09/30/2008
    Less than six months old                             29                  12                 $133,614,358
    Six or more months old                               10                   7                 $346,919,394
   TOTAL                                                 39                  19                 $480,533,752



42 Semiannual Report to the Congress
             Statistical Summary of OIG Accomplishments



                              Management Decisions on Audit Reports with
                              Financial Recommendations
                              Tables 2 and 3 present the audits identified in Table 1 as containing financial
                              recommendations by category (funds to be put to better use or questioned
                              costs).




             Table 2. Management Decisions on OIG Audits
           Recommendations that Funds be Put to Better Use

                                                        Number of                      Financial
                                                         Reports                   Recommendations
For which no management
decision had been made
as of 04/01/2008
 Less than six months old                                   14                       $104,715,718
 Six or more months old                                      4                       $364,489,084
 Reports issued this period                                 29                       $355,064,515
TOTAL                                                       47                       $824,269,317

For which a management
decision was made during
the reporting period
TOTAL                                                       30                       $346,477,254

For which no management
decision had been made
as of 09/30/2008
Less than six months old                                    10                       $130,872,669
Six or more months old                                       7                       $346,919,394
TOTAL                                                       17                       $477,792,063




                                                                          April 1, 2008 – September 30, 2008 43
                      Statistical Summary of OIG Accomplishments




      Table 3. Management Decisions on OIG Audits With Questioned Costs

                                               Number of       Questioned
                                                Reports          Costs
       For which no management
       decision had been made
       as of 04/01/2008
        Less than six months old                   2               $3,949,288
        Six or more months old                     0                       $0
       Reports issued this period                  3               $4,588,336
       TOTAL                                       5               $8,537,624

       For which a management
       decision was made during
       the reporting period
       TOTAL                                       3               $5,795,935

       For which no management
       decision had been made
       as of 09/30/2008
        Less than six months old                   2               $2,741,689
        Six or more months old                     0                       $0
       TOTAL                                       2               $2,741,689




44 Semiannual Report to the Congress
           Statistical Summary of OIG Accomplishments



                      Investigative Workload
                      The OIG opened 93 investigative cases and closed 68 cases during this
                      period. In addition, the OIG received and evaluated 42 complaints and
                      allegations from sources other than the Hotline that involved GSA employees
                      and programs. Based upon our analyses of these complaints and allegations,
                      OIG investigations were not warranted.

                      Referrals
                      The OIG makes criminal referrals to the Department of Justice or other
                      authorities for prosecutive consideration and civil referrals to the Civil Division
                      of the Department of Justice or U.S. Attorneys for litigative consideration. The
                      OIG also makes administrative referrals to GSA officials on certain cases
                      disclosing wrongdoing on the part of GSA employees, contractors, or private
                      individuals doing business with the government.



                   Table 4. Summary of OIG Referrals

Type of Referral                        Cases                                 Subjects

Criminal                                  67                                      112
Civil                                     11                                       14
Administrative                            40                                       81

TOTAL                                    118                                      207



                      In addition, the OIG made 19 referrals to GSA officials for information
                      purposes only.

                      Actions on OIG Referrals
                      Based on these and prior referrals, 42 cases (64 subjects) were accepted for
                      criminal prosecution and 4 cases (7 subjects) were accepted for civil litigation.
                      Criminal cases originating from OIG referrals resulted in 39
                      indictments/informations and 45 successful prosecutions. OIG civil referrals
                      resulted in 4 case settlements. Based on OIG administrative referrals,
                      management debarred 48 contractors/individuals, suspended 62
                      contractors/individuals, and took 15 personnel actions against employees.




                                                                   April 1, 2008 – September 30, 2008 45
                        Statistical Summary of OIG Accomplishments



                                       Monetary Results
                                       Table 5 presents the amounts of fines, penalties, settlements, forfeitures,
                                       judgments, and restitutions payable to the U.S. Government as a result of
                                       criminal and civil actions arising from OIG referrals.



                             Table 5. Criminal and Civil Recoveries

                                                           Criminal                      Civil

          Fines and Penalties                             $     39,299

          Settlements                                                                 $8,637,500

          Forfeitures                                          818,770

          Seizures                                            1,390,400

          Restitutions                                        5,747,348

          TOTAL                                           $7,995,817                  $8,637,500



                                       Table 6 presents the amount of administrative recoveries and forfeitures as a
                                       result of investigative activities.



                                  Table 6. Other Monetary Results

          Administrative Recoveries                       $1,474,573

          Forfeitures                                            2,270

          TOTAL                                           $1,476,843




46 Semiannual Report to the Congress
APPENDICES
                      Appendix I–Significant Audits from Prior Reports



Under the Agency audit management decision process,          appropriate privacy clauses have been included and that
the GSA Office of the Chief Financial Officer, Office of     contractors supporting privacy act systems of records
the Controller, is responsible for tracking the              are aware of and fulfill their roles and responsibilities for
implementation of audit recommendations after a              protecting GSA’s PII; and completing development and
management decision has been reached. That office            implementation of role-based training for GSA
furnished the following status information.                  associates and contractors who are responsible for
                                                             protecting sensitive information, including PII. They are
Thirteen audits highlighted in prior reports to the          scheduled for completion between November 15, 2008
Congress have not yet been fully implemented; all are        and November 15, 2009.
being implemented in accordance with currently
established milestones.
                                                             Use of Inventory Management
FedRooms Program                                             Software
                                                             Period First Reported: October 1, 2007, to April 30, 2008
Period First Reported: October 1, 2007, to April 30, 2008

                                                             Our review objectives were to determine whether: (1)
The focus of the review was to determine if the
                                                             FAS was using the Manugistics inventory management
FedRooms program provided value to Federal travelers
                                                             software to the fullest extent possible, and if not, what
and whether the program was being utilized by a
                                                             were the reasons for inconsistent usage; and (2) the
substantial percentage of these travelers. The report
                                                             Manugistics software could be improved to better
contained one recommendation; it has not been
                                                             manage inventory in the depots and stores. The report
implemented.
                                                             contained seven recommendations; six have not been
                                                             implemented.
The recommendation involves developing a business
plan that includes addressing the obstacles that may
                                                             The remaining recommendations involve the FAS
affect the future viability of the FedRooms program. It is
                                                             Commissioner providing additional training related to the
scheduled for completion on January 15, 2009.
                                                             proper and practical application of the Manugistics
                                                             software and inventory management concepts and
Improvements to the GSA Privacy Act                          terminology;       removing       redundant      inventory
Program Are Needed to Ensure That                            management functionality from the legacy systems;
                                                             maintaining up-to-date procurement and inventory costs
PII is Adequately Protected                                  in the Manugistics software; and conducting three
Period First Reported: October 1, 2007, to April 30, 2008    cost/benefit studies related to implementing
                                                             improvements        to     transportation    management
We found that GSA has taken steps toward improving           information, incorporating contract data in the
the protection of Personally Identifiable Information;       Manugistics software, and adding data warehousing to
however, improvements to the GSA Privacy Act                 maintain historical data regarding actions taken by
Program are needed. The report contained four                inventory managers and store coordinators and
recommendations; none have been implemented.                 routinely report this information to their supervisors.

The recommendations include developing an                    They are scheduled for completion between November
implementation plan for the privacy act program which        15, 2008 and June 15, 2009.
identifies key roles, responsibilities, milestones, and
management performance measures to achieve long-
term improvement goals; ensuring that the Privacy Act        PBS’s Response to Hurricane Katrina
Program is integrated with the agency’s security             Period First Reported: October 1, 2007, to April 30, 2008
program; working with the Office of the Chief Acquisition
Officer to review contracts in support of major IT           Our audit objectives were to: (1) review the
systems that collect and store PII to ensure that the        effectiveness of preventive actions taken by GSA to



                                                                                     April 1, 2008 – September 30, 2008 49
                      Appendix I–Significant Audits from Prior Reports



safeguard assets and to prepare GSA tenants for               processing contract actions in the Schedules program.
Hurricane Katrina; (2) analyze the processes used to          The report contained ten recommendations; five have
assess and repair those properties damaged by Katrina;        not been implemented.
(3) review the steps taken by PBS to determine the
necessary actions for affected leased properties              The remaining recommendations involve developing
(e.g., terminate, suspend, or continue leases); and           policy to standardize processes for the method and timing
(4) ascertain the financial implications of Hurricane         of entering contract modification information into FSS
Katrina on the Federal Buildings Fund. The report             Online; adopting a more structured approach to reduce
contained six recommendations; two have not been              the number of existing underutilized schedule contracts;
implemented.                                                  establishing specific nationwide guidance related to Price
                                                              Analysis Documentation Requirements and Negotiation
The remaining recommendations require the                     Policies and Techniques for schedule contracts;
                                                              establishing performance measures that evaluate
Commissioner, PBS, to continue to enhance and
                                                              contracting officers’ contract specialists’ (a) verification of
improve damage assessment capabilities, such as the
                                                              vendor disclosures related to Commercial Sales Practice,
“PC tablets,” developed by Region 4 personnel, for
                                                              (b) effectiveness in analyzing prices and conducting
future disaster responses and to ensure that steps are
                                                              negotiations, and (c) consideration of the field pricing
taken to prepare tenants in hurricane zones before each
                                                              assistance; and developing standardized procedures for
hurricane season, such as updating and providing              the initial screening of offers. They are scheduled for
Region 4’s “Hurricane Preparedness” presentation.             completion between November 15, 2008 and August 15,
They are scheduled for completion on November 15,             2009.
2008 and January 15, 2009, respectively.
                                                              FAS’s Administration of
PBS’s Appraisal Process for
                                                              Unused Airline Tickets
Rent Pricing
                                                              Period First Reported: April 1, 2007, to September 30, 2007
Period First Reported: October 1, 2007, to April 30, 2008
                                                              We found that the process for refund collections for
The review identified issues with controls over the           unused airline tickets needed significant improvements.
appraisal adjustments. The report contained three             The report contained six recommendations; two have
recommendations; none have been implemented.                  not been implemented.
The recommendations involve establishing specific             The remaining recommendations involve the FAS
documentation requirements for appraisal files to             Commissioner directing the Assistant Commissioner,
substantiate regional appraiser’s decisions and actions       travel, motor vehicle and card services to pursue other
regarding an appraisal file, reinforcing appraisal            alternatives such as DFAS deductions (maximum of
instructions and guidance with PBS regional appraisers        $7.7 million) and/or legal action to collect on the
to ensure the appraisal review process uncovers               outstanding claim of $8.34 million from the non-bankrupt
appraisal policy violations, and developing consistent        airline, and developing a feasible plan in conjunction
critical performance elements for regional appraisers         with the Office of General Counsel that will lead to
that will ensure performance expectations do not conflict     finalizing settlements of unused airline tickets estimated
(in fact and appearance) with the professional duties of      at $48 million with the three bankrupt airlines. They are
the regional appraiser. They are scheduled for                scheduled for completion on November 15, 2008.
completion on January 15, 2009.
                                                              Security of GSA’s Electronic
MAS Contract Workload Management                              Messaging Services
Period First Reported: April 1, 2007, to September 30, 2007   Period First Reported: April 1, 2007, to September 30, 2007

The focus of the review was to determine if FAS was           Our review assessed whether GSA has adequate
effectively managing the workload associated with             security controls to manage risks with GEMS and GNNI


50 Semiannual Report to the Congress
                      Appendix I–Significant Audits from Prior Reports



applications. The     report    contained   seven             with Federal Accounting Standards, subjecting HOTD to
recommendations; two have not been implemented.               more rigorous financial and operational analysis,
                                                              replacing the deficient Induced Draft Fan to permit as-
The remaining recommendations involve the GSA-CIO             designed system functionality and performance testing
working closely with Services/Staff Offices/Regions to        of the cogeneration system, determining the best use of
inventory all GSA’s Lotus Notes databases and                 the West Plant Asset, developing a Contingency Plan for
applications and remove those that are outdated, lack         providing utility services in the event central plan
necessary controls or do not adhere to guidelines and         operations are interrupted, discontinuing the use of
completing a comprehensive certification and                  Reimbursable Work Authorizations (RWA) for HOTD
accreditation process that ensures that risks and             services in order to correct accounting data, recognizing
controls are identified and documented. They are              the HOTD organization as a discrete facility within the
scheduled for completion on November 15, 2008.                financial system, and developing the capability to isolate
                                                              HOTD financial activities by business line. They are
Travel and Transportation                                     scheduled for completion between November 15, 2008
                                                              and January 15, 2009.
Management Division’s Freight
Management Program
Period First Reported: April 1, 2007, to September 30, 2007   PBS’s Use of Occupancy Agreements
                                                              as a Billing Source
Our review objectives were to determine if the
organization ensures competitive rates that provide best      Period First Reported: October 1, 2006, to March 31, 2007
value to the Federal user, and agencies are remitting the
Industrial Funding Fee (IFF) in an accurate, complete,        The focus of the review was to determine whether the
and timely manner. The report contained three                 occupancy agreements billing process resulted in more
recommendations; one has not been implemented.                accurate, easier to understand customer bills. The
                                                              report contained two recommendations; one has not
The remaining recommendation requires the Travel &            been implemented.
Transportation Management Division to determine the
status and need of the incomplete Transportation              The remaining recommendation involves developing
Management Services Solution (TMSS) Modules,                  and implementing a methodology to provide customers
prepare a timetable for completing those still desired,       with additional information to explain rate changes and
and assign the necessary resources to complete the            Miscellaneous Billing Adjustments. It is scheduled for
development and implementation of TMSS in a timely            completion on November 15, 2008.
manner. It is scheduled for completion on March 15, 2009.

                                                              GSA’s Electronic Contract Proposal
Heating Operation and Transmission
                                                              and Modification System
District’s Operations and Finances
                                                              Period First Reported: October 1, 2006, to March 31, 2007
Period First Reported: April 1, 2007, to September 30, 2007
                                                              The review’s objective was to determine whether
The focus of our review was to determine if GSA’s
                                                              eOffer/eMod are realizing expected benefits and if
Heating Operation and Transmission District (HOTD), a
steam and chilled water utility service to government         sufficient security controls have been designed and
and quasi-government customers in the National Capital        implemented.       The     report   contained   four
Region, operates and uses its assets economically,            recommendations; one has not been implemented.
efficiently, and securely. The report contained thirteen
recommendations; eight have not been implemented.             The remaining recommendation involves analyzing
                                                              usage rates and developing strategies to address the
The remaining recommendations involve preparing               causes of low usage. It is scheduled for completion on
annual financial statements for HOTD that comply              November 15, 2008.



                                                                                     April 1, 2008 – September 30, 2008 51
                      Appendix I–Significant Audits from Prior Reports



Consolidation of Distribution Centers
Period First Reported: October 1, 2002, to March 31, 2003

The review examined the operations of the FSS Stock
Program. The report contained two recommendations;
one has not been implemented.

The remaining recommendation, which requires
developing access to sufficient and reliable data for all
delivery methods, is scheduled for completion on
November 15, 2008.




52 Semiannual Report to the Congress
                              Appendix II–Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                 Funds to         Questioned
Date of        Audit                                                            Be Put to       (Unsupported)
Report         Number                   Title                                   Better Use           Costs


(Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial
recommendations related to these reports are not listed in this Appendix.)

PBS Internal Audits
05/29/08       A080106         Alert Report on Audit of GSA’s Acquisition
                               of Services for the International Trade
                               Center at The Ronald Reagan Building

06/04/08       A060125         Audit of the Greater Chicagoland Service
                               Center, Public Buildings Service, Great
                               Lakes Region

07/14/08       A070108         FY 2007 Office of Inspector General
                               Information Technology Security Audit of
                               PBS Corporate

09/30/08       A060101         Audit of Reimbursable Work Authorizations

09/30/08       A070216         Audit of PBS’s Controls Over Security of
                               Building Information

PBS Contract Audits
04/10/08       A080083         Review of a Claim for Increased Costs: H.J.
                               Martin & Son, Inc., Subcontractor to Mid
                               Canada Millwork, Ltd., Contract Number
                               GS-09P-01-KTC-0071

04/29/08       A080084         Review of Change Order Proposal for
                               Resolution of Wage Rate: KenMor
                               Electrical Company, LP, Subcontractor to
                               W.G. Yates and Sons Construction
                               Company, Contract Number GS-07P-05-
                               URC-5007

05/14/08       A080068         Preaward Review of Change Order
                               Proposal: Five Star Electric Corporation,
                               Subcontractor to Volmar Construction, Inc.,
                               Contract Number GS-02P-04-DTC-0029

05/22/08       A080076         Preaward Review of Change Order
                               Proposal: Volmar Construction, Inc.,
                               Contract Number GS-02P-04-DTC-0029

06/10/08       A080088         Review of a Claim: Control Air Conditioning
                               Corporation,   Subcontractor     to    Dick
                               Corporation/ Matt Construction Company, a
                               Joint Venture, Contract Number GS-09P-
                               01-KTC-0071


                                                                               April 1, 2008 – September 30, 2008 53
                               Appendix II–Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                               Funds to         Questioned
Date of        Audit                                                          Be Put to       (Unsupported)
Report         Number                    Title                                Better Use           Costs


07/10/08        A080117         Preaward Review of Spatial Data
                                Management Services Contract: TSIG
                                Consulting Inc., Solicitation Number GS-
                                02P-08-PFD-0005

07/14/08        A070232         Review of Lease Number GS-06P-40004,                          $2,719,705
                                Internal Revenue Service Consolidation,
                                315 West Pershing Road, Kansas City,
                                Missouri

07/28/08        A080171         Review of Change Order Proposal: Waldorf
                                Demolition, Subcontractor to Cauldwell
                                Wingate Company, LLC, Contract Number
                                GS-02P-05-DTC-0021(N)

08/07/08        A080158         Preaward Review of a Claim: GPA-Buffer,
                                L.P., Lease Number GS-04B-039838

09/24/08        A070127         Limited Review of Contractor’s Competitive
                                Bidding Practices: Leon D. DeMatteis
                                Construction Corp., Contract Number GS-
                                02P-04-DTC-0032(N)

FSS Contract Audits
06/11/08        A040224         Review of Multiple Award Schedule                             $1,846,647
                                Contract Number GS-07F-8854D for the
                                Period February 1, 1996 Through
                                December 31, 2006: ADT Security
                                Services, Inc.

FAS Internal Audits
06/05/08        A070212         Audit of GSA Fleet’s Alternative Fuel
                                Vehicle Surcharges, Federal Acquisition
                                Service

07/30/08        A070122         Survey of the Federal Acquisition Service
                                Organization

09/10/08        A080081         FY 2008 Office of Inspector General
                                Information Technology Security Audit of
                                the Regional Business Applications System

09/22/08        A080152         Limited Review of Alliant and Alliant Small
                                Business


54 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                                 Financial
                                                                            Recommendations
                                                                       Funds to         Questioned
Date of    Audit                                                      Be Put to       (Unsupported)
Report     Number              Title                                  Better Use           Costs


09/29/08   A080074    Improving the FedRooms Program Based
                      on Benchmarking, Federal Acquisition
                      Service

FAS Contract Audits
04/03/08   A070149    Preaward Review of Multiple Award
                      Schedule Contract Extension: Apptis, Inc.,
                      Contract Number GS-35F-4460G

04/10/08   A070168    Preaward Review of Multiple Award
                      Schedule Contract Extension: MSC
                      Industrial Direct Co., Inc., Contract Number
                      GS-06F-0010N

04/14/08   A080086    Preaward Review of Multiple Award
                      Schedule Contract Extension: BOH
                      Environmental, LLC, Contract Number GS-
                      07F-0516N

04/15/08   A070166    Preaward Review of Multiple Award
                      Schedule Contract Extension: RS Staffing
                      Services, Inc., Contract Number GS-10F-
                      0092N

04/17/08   A070196    Preaward Review of Multiple Award
                      Schedule Contract Extension: NCR
                      Government Systems LLC, Contract
                      Number GS-35F-4933H

05/05/08   A070219    Preaward Review of Multiple Award
                      Schedule Contract Extension: Navarro
                      Research and Engineering, Incorporated,
                      Contract Number GS-00F-0092N

05/05/08   A080107    Preaward Review of Multiple Award
                      Schedule Contract Extension: Superior
                      Protection Service, Inc., Contract Number
                      GS-07F-0605N

05/15/08   A080065    Preaward Review of Multiple Award
                      Schedule Contract Extension: CGI Federal
                      Inc., Contract Number GS-35F-4797H




                                                                     April 1, 2008 – September 30, 2008 55
                               Appendix II–Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                               Funds to         Questioned
Date of        Audit                                                          Be Put to       (Unsupported)
Report         Number                    Title                                Better Use           Costs


05/16/08        A080072         Preaward Review of Multiple Award
                                Schedule Contract Extension: Sprung
                                Instant Structures, Inc., Contract Number
                                GS-07F-9950H

05/20/08        A070218         Preaward Review of Multiple Award
                                Schedule Contract Extension: KPMG, LLP,
                                Contract Number GS-23F-8127H

05/22/08        A070229         Preaward Review of Multiple Award
                                Schedule Contract Extension: Citrix
                                Systems, Incorporated, Contract Number
                                GS-35F-0332N

05/22/08        A080091         Preaward Review of Multiple Award
                                Schedule       Contract     Extension:
                                Environmental Systems Research Institute
                                Incorporated, Contract Number GS-35F-
                                5086H

05/30/08        A070211         Preaward Review of Multiple Award
                                Schedule Contract Extension: Jeskell,
                                Incorporated, Contract Number GS-35F-
                                4902H

06/03/08        A070188         Preaward Review of Multiple Award
                                Schedule Contract Extension: Covenant
                                Homeland Security Solutions, Ltd., Contract
                                Number GS-07F-0505M

06/05/08        A070095         Preaward Review of Multiple Award
                                Schedule Contract Extension: GTSI
                                Corporation, Contract Number GS-35F-
                                4120D

06/06/08        A080115         Preaward Review of Multiple Award
                                Schedule Contract Extension: Home Depot
                                U.S.A., Inc., Contract Number GS-06F-
                                0052N

06/10/08        A080078         Preaward Review of Multiple Award
                                Schedule Contract Extension: Unisource
                                Worldwide, Inc., Contract Number GS-15F-
                                1110H




56 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                               Financial
                                                                          Recommendations
                                                                     Funds to         Questioned
Date of    Audit                                                    Be Put to       (Unsupported)
Report     Number             Title                                 Better Use           Costs


06/17/08   A080126   Preaward Review of Multiple Award
                     Schedule Contract Extension: Engineering
                     Management Concepts, Incorporated,
                     Contract Number GS-10F-0364N

07/01/08   A070213   Preaward Review of Multiple Award
                     Schedule Contract Extension: Tarheel
                     Specialties, Incorporated, Contract Number
                     GS-07F-0152N

07/01/08   A070198   Preaward Review of Multiple Award
                     Schedule    Contract  Extension: ITS
                     Corporation, Contract Number GS-35F-
                     4674H

07/11/08   A080079   Preaward Review of Multiple Award
                     Schedule Contract Extension: Eagle Group
                     International, Incorporated,    Contract
                     Number GS-10F-0397N

07/23/08   A070217   Preaward Review of Multiple Award
                     Schedule Contract Extension: Compuware
                     Corporation, Contract Number GS-35F-
                     5337H

07/31/08   A070207   Preaward Review of Multiple Award
                     Schedule Contract Extension: Americom
                     Government Services, Inc., Contract
                     Number GS-35F-0301N

08/05/08   A080077   Preaward Review of Multiple Award
                     Schedule Contract Extension: Gartner, Inc.,
                     Contract Number GS-35F-5014H

08/06/08   A080054   Preaward Review of Multiple Award
                     Schedule Contract: CAS Severn, Inc.,
                     Solicitation Number FCIS-JB-980001-B

08/08/08   A080092   Preaward Review of Multiple Award
                     Schedule Contract Extension: Agilent
                     Technologies, Incorporated, Contract
                     Number GS-24F-0806A

08/19/08   A080157   Preaward Review of Multiple Award
                     Schedule Contract Extension: Dehler
                     Manufacturing Company, Inc., Contract
                     Number GS-27F-2030B


                                                                   April 1, 2008 – September 30, 2008 57
                               Appendix II–Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                              Funds to         Questioned
Date of        Audit                                                         Be Put to       (Unsupported)
Report         Number                    Title                               Better Use           Costs


08/21/08        A070089         Review of Multiple Award Schedule
                                Contract Number GS-00F-0052M for the
                                Period April 1, 2002 Through December 31,
                                2006: Cherokee Information Services, Inc.

08/27/08        A080055         Preaward Review of Multiple Award
                                Schedule Contract Extension: Base
                                Technologies, Inc., Contract Number GS-
                                35F-5451H

08/28/08        A080165         Preaward Review of Multiple Award
                                Schedule Contract Extension: ITS Services,
                                Inc., Contract Number GS-35F-5518H

08/28/08        A070230         Preaward Review of Multiple Award
                                Schedule Extension: BearingPoint, LLC,
                                Contract Number GS-35F-4338D

09/02/08        A080071         Preaward Review of Multiple Award
                                Schedule Contract Extension: MPC-G,
                                LLC, Contract Number GS-35F-0348N

09/03/08        A080167         Preaward Review of Multiple Award
                                Schedule Contract Extension: Phoenix
                                Consulting Group, Incorporated, Contract
                                Number GS-07F-0684N

09/17/08        A080101         Preaward Review of Multiple Award
                                Schedule Contract Extension: Matthew
                                Bender and Company, Inc., Contract
                                Number GS-02F-0174N

09/24/08        A070217         Limited Scope Review of Multiple Award                          $21,984
                                Schedule Contract Extension: Compuware
                                Corporation, Contract Number GS-35F-
                                5337H

Other Internal Audits
06/23/08        A070094         Work Remains in Implementing a Fully
                                Integrated Pegasys Financial Management
                                System

06/24/08        A070096         Review of GSA’s General Management and
                                Administration Working Capital Fund



58 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                             Financial
                                                                        Recommendations
                                                                   Funds to         Questioned
Date of    Audit                                                  Be Put to       (Unsupported)
Report     Number             Title                               Better Use           Costs


07/30/08   A070046   Hotline Complaint - Acquisitions with the
                     Office of the Chief Acquisition Officer

08/28/08   A080081   FY 2008 Office of Inspector General
                     Information Technology Security Audit of
                     the Office of General Counsel LAN

09/08/08   A060246   Improved Access Controls Could Help
                     Protect Personnel Information within the
                     Comprehensive      Human     Resources
                     Integrated System (CHRIS)

09/10/08   A080081   FY 2008 Office of Inspector General
                     Information Technology Security Audit of
                     the Region 7 FTS/PBS LAN

09/10/08   A070187   Review of GSA’s Office of Congressional
                     and Intergovernmental Affairs and the
                     Office of Governmentwide Policy

09/11/08   A080081   FY 2008 Office of Inspector General FISMA
                     Review of GSA’s Information Technology
                     Security Program

Non-GSA Internal Audits
09/26/08   A080108   Report    on  Applying  Agreed-Upon
                     Procedures Re: FY 2008 Fund Balance
                     with Treasury

09/29/08   A080093   General Services Administration Office of
                     Inspector General’s Report on Applying
                     Agreed Upon Procedures




                                                                 April 1, 2008 – September 30, 2008 59
 Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending

Public Law 104-106 requires the head of a Federal             the Office of the Chief Financial Officer (OCFO) is
agency to complete final action on each management            responsible for monitoring and tracking open
decision required with regard to a recommendation in an       recommendations. While we continue to assist the
Inspector General’s report within 12 months after the         Agency in resolving these open items, various litigative
date of the report. If the head of the Agency fails to        proceedings, continuing negotiations of contract
complete final action within the 12-month period, the         proposals, and corrective actions needed to undertake
Inspector General shall identify the matter in the            complex and phased-in implementing actions often delay
semiannual report until final action is complete. In GSA,     timely completion of the final action.

The OCFO provided the following list of reports with action items open beyond 12 months:


Date of         Audit
Report          Number                                             Title


Contract Audits
08/05/97         A73617          Refund From The Committee For Purchase From People Who Are Blind Or Severely
                                 Disabled, Agreement Number GS-02F-61511

06/17/98         A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                 Contract Number GS-09P-95-KTC-0010

03/24/99        A995128          Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                                 Morse Diesel International, Inc., Contract Number GS-06P-95-GZC-0501

06/01/00        A000971          Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal Triangle
                                 Project

04/30/01        A010127          Audit of Billings under Contract Number GS-06P-99-GZC-0315: DKW Construction,
                                 Inc.

10/18/01        A63630           Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                                 Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                                 March 31, 1996

01/11/02        A010281          Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                                 Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                 Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/29/02        A020124          Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                                 Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                 Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/12/02        A020097          Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                                 Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                 Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

07/30/02        A020086          Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                                 Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                 Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032


60 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                   Title


11/20/02   A010279   Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc., New
                     U.S. Courthouse & Federal Building, Sacramento, California, Contract Number GS-
                     09P-95-KTC-0032

01/30/03   A020248   Audit of Claim for Increased Costs: Doan/Lake Erie LLC, Contract Number GS-05P-
                     99-GBC-0012

03/21/03   A020133   Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

03/25/03   A030140   Limited Scope Review of Termination Claim: Science Applications International
                     Corporation, Contract Number GS-35F-4461G, Task Order Number T0002SJ0159

05/02/03   A030106   Preaward Audit of a Claim for Increased Costs: George Foss Company,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/29/03   A020230   Preaward Audit of a Claim for Increased Costs: C. E. Toland & Son, Subcontractor
                     to Morse Diesel International, Inc., New U.S. Courthouse & Federal Building,
                     Sacramento, California, Contract Number GS-09P-95-KTC-0032

01/12/04   A040098   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Gonzalez Hasbrouck, Inc., Solicitation Number GS-05P-03-GBD-0072

02/03/04   A040119   Attestation Review of Supplemental Architect and Engineering Services Contract:
                     Julie Snow Architects, Inc., Solicitation Number GS-05P-03-GBD-0072

03/09/04   A040162   Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G, for the Interim Period April 1, 2004 Through
                     September 30, 2006

03/09/04   A030186   Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G

06/28/04   A040085   Limited Scope Postaward Audit of Multiple Award Schedule Contract: Onboard
                     Software, Inc., Contract Number GS-35F-0117J

10/29/04   A040211   Preaward Review of Multiple Award Schedule Contract Extension: Allsteel Inc.,
                     Contract Number GS-28F-0010J

05/10/05   A050112   Preaward Review of Multiple Award Schedule Contract Extension: Entrust, Inc.,
                     Contract Number GS-35F-0332K

07/08/05   A050138   Review of Claim: Nason and Cullen, Inc., Contract Number GS-03B-02301



                                                                      April 1, 2008 – September 30, 2008 61
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                        Title


10/12/05        A050105         Preaward Review of Multiple Award Schedule Contract Extension: BCOP Federal,
                                Contract Number GS-14F-0035K

11/30/05        A050147         Limited Scope Review of Task Order F11623-02-F-A425 Multiple Award Schedule
                                Contract: Herman Miller, Inc., Contract GS-28F-8049H

12/30/05        A050176         Preaward Review of Multiple Award Schedule Contract Extension: E.F. Johnson
                                Company, Contract Number GS-35F-0675K

01/05/06        A050247         Preaward Review of Price Adjustment Claim: Lockheed Martin Information
                                Technology, Task Order Number 103BK0034, Contract Number GS-35F-4039G

03/30/06        A050248         Postaward Review of Lease Costs and Pricing Data: Information Systems Support,
                                Incorporated, Contract Number GS-09K-BHD-0006

04/18/06        A050122         Review of Industrial Funding Fee Remittances: Fastenal Company, Contract
                                Number GS-06F-0039K

05/09/06        A050180         Preaward Review of Multiple Award Schedule Contract Extension: Office Depot,
                                Incorporated, Contract Number GS-14F-0040K

08/15/06        A060127         Preaward Review of Multiple Award Schedule Contract Extension May 7, 2006
                                Through May 6, 2011: W.B. Brawley Company, Contract Number GS-27F-0018L

09/07/06        A060181         Preaward Review of Multiple Award Schedule Contract Extension: Haverstick
                                Government Solutions, Inc., Contract Number GS-35F-0496L

09/13/06        A060231         Preaward Review of Architect and Engineering Services Contract: Teng &
                                Associates, Inc., Contract Number GS-01P-06-BZC-0004

10/24/06        A060148         Preaward Review of Multiple Award Schedule Contract Extension: Kimball
                                International, Incorporated, Contract Number GS-29F-0177G

10/31/06        A060206         Postaward Review of Lease Costs and Pricing Data: Information Systems Support,
                                Incorporated, Contract Number GS-09K-99-BHD-0006

11/30/06        A060230         Preaward Review of Multiple Award Schedule Contract Extension: General Security
                                Services Corporation, Contract Number GS-07F-0305M

12/08/06        A060115         Preaward Review of Multiple Award Schedule Contract Extension: WFI Government
                                Services, Inc., Contract Number GS-35F-0553L

02/20/07        A060212         Preaward Review of Multiple Award Schedule Contract Extension: Information
                                Management Consultants, Inc., Contract Number GS-35F-4406G



62 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                   Title


04/17/07   A060242   Preaward Review of Multiple Award Schedule Contract Extension: Gateway
                     Companies, Inc., Contract Number GS- 35F-4565G

04/20/07   A070107   Review of a Claim: Linear Electric Company, Subcontractor to Williams Construction
                     Services, Inc., Lease Number GS-02B-23182

04/26/07   A070114   Preaward Review of Multiple Award Schedule Contract Extension: Scott
                     Technologies, Incorporated, Contract Number GS-07F-9563G

04/30/07   A060245   Preaward Review of Multiple Award Schedule Contract Extension: Comstor, Division
                     of Westcon Group North America, Inc., Contract Number GS-35F-4389G

05/03/07   A070036   Preaward Review of Multiple Award Schedule Contract Extension: ASAP Software
                     Express, Inc., Contract Number GS-35F-4027D

05/03/07   A060177   Preaward Review of Multiple Award Schedule Contract Extension: Logistics
                     Management Institute, Contract Number GS-00F-0026M

05/14/07   A070047   Limited Scope Review of Multiple Award Schedule Contract: Draegar Safety, Inc.,
                     Contract Number GS-07F-9510G

07/05/07   A070088   Preaward Review of Multiple Award Schedule Contract Extension: Big Top
                     Manufacturing; Contract Number GS-07F- 9604G

07/31/07   A060247   Preaward Review of Multiple Award Schedule Contract Extension: AT&T
                     Government Solutions, Inc., Contract Number GS-35F-4507G

08/16/07   A070092   Preaward Review of Multiple Award Schedule Contract Extension: Simplex Grinnell
                     LP, Contract Number GS-07F-0396M

08/22/07   A070192   Preaward Review of Architect & Engineering Services Contract: Cannon Design,
                     Subcontractor to URS Group, Inc., Solicitation Number GS-05P-04-GBC-0020

08/23/07   A070183   Preaward Review of Architect Engineer Proposal: Perkins + Will, Solicitation Number
                     GS-09P-06-KTC-3043

08/23/07   A070190   Review of Cost or Pricing Data: Mascaro Construction Company, L.P., Contract
                     Number GS-02P-03-DTC-0010

08/27/07   A070141   Review of Claim for Increased Costs: Logic Vision, Inc., Contract Number GS-06P-
                     04-GYC-0005

08/28/07   A060196   Preaward Review of Request for Equitable Adjustment: Tigard Electric, Inc.,
                     Subcontractor to J.E. Dunn Northwest, Inc., Contract Number GS-10P-02-LTC-
                     0025



                                                                     April 1, 2008 – September 30, 2008 63
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                        Title


09/27/07        A060239         Preaward Review of Multiple Award Schedule Contract Extension: Emtec Federal,
                                Inc., Contract Number GS-35F- 4564G

09/25/07        A070024         Preaward Review of Multiple Award Schedule Contract Extension: Dell Marketing
                                L.P., Contract Number GS-35F- 4076D




64 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit                                                                       Projected Final
Report     Number                                 Title                                 Action Date


Internal Audits
03/18/03   A020161   Audit of the Consolidation of Distribution Center Operations:       11/15/2008
                     Impact on Shipment Costs & Delivery Times

12/28/06   A050263   Audit of PBS’s Use of Occupancy Agreements As a Billing Source      11/15/2008

03/06/07   A060149   Review of eOffer/eMod, GSA’s Electronic Contract Proposal and       11/15/2008
                     Modification System

05/17/07   A070067   Review of the Administration of Unused Airline Tickets, Federal     11/15/2008
                     Acquisition Service

05/21/07   A060153   Review of Federal Supply Service Travel and Transportation           3/15/2009
                     Management Division’s Freight Management Program

07/31/07   A060190   Review of Multiple Award Schedule Program Contract Workload          8/15/2009
                     Management

09/12/07   A070180   Alert Report on Security of GSA’s Electronic Messaging Services     11/15/2008
                     and National Notes Infrastructure

09/13/07   A060170   Review of the Heating Operation and Transmission District’s          1/15/2009
                     Operations and Finances




                                                                    April 1, 2008 – September 30, 2008 65
                 Appendix IV–Government Contractor Audit Findings



The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General
appointed under the Inspector General Act of 1978 to submit an annex on final, completed contract audit reports
issued to the contracting activity that contain significant audit findings – unsupported, questioned, or disallowed costs
in an amount in excess of $10 million, or other significant findings – as part of the Semiannual Report to Congress.
During this reporting period, the OIG issued no contract review reports under this requirement.




66 Semiannual Report to the Congress
                                   Appendix V–Delinquent Debts



The GSA Office of the Chief Financial Officer provided the following information.

In compliance with the Debt Collection Improvement Act        GSA managers to identify and resolve collection issues.
of 1996 (DCIA), each month the General Services               GSA has also improved the consistency and timeliness
Administration (GSA) transmits delinquent accounts            of delinquency notices by letter, and increased efforts to
receivable and claims from the public, which are more         identify invoice offsets on amounts due to commercial
than 180 days old to the Department of the Treasury,          vendors on other contracts. GSA’s Financial Services
Debt Management Service (DMS). GSA has continued              Division expects these administrative adjustments to
to implement and initiate actions to improve debt             result in faster claim resolution. In addition, more
collection efforts to reduce the amount of debts written-     aggressive actions have been taken to resolve past due
off as uncollectible.                                         receivables, including timelier referrals to Treasury and
                                                              accelerated write-offs of older receivable balances.
Delinquent accounts receivable and claims coordination
efforts between GSA program offices, the financial            GSA converted the Accounts Receivable Collection
services divisions, and the Department of the Treasury        System (ARCS) from a FoxPro to an Oracle database
(Treasury) claims cross-servicing personnel continue to       during the month of May 2008. The Oracle database will
strengthen our receivables and claims collection efforts.     allow Claims staff the ability to receive support for adhoc
These efforts include regular teleconferences on              reports as needed. In addition, research capabilities and
delinquent receivables in order to exchange necessary         the month end reporting process has improved.
information to further the collection process.
Receivables and claims continue to be reduced by              Lastly, if more than 3% of a region’s outstanding
increased follow-up of delinquencies.                         receivables are over 180 days old, the region receives a
                                                              red status on GSA’s Executive Financial Scorecard
A claims database was established by GSA to aid in the        which serves as a primary internal control developed by
aging and monitoring of claims activity. Other                GSA staff. In addition to the monthly scorecard, a weekly
improvements include increases in telephone follow-up         Accounts Receivable Aging report is sent to GSA’s
contacts with commercial vendors, field personnel, and        Assistant Regional Administrators (ARAs).


Non-Federal Accounts Receivable

                                              As of                        As of
                                          March 31, 2008             September 30, 2008                Difference

     Total Amounts Due GSA                  $146,313,113                  $168,664,853                $22,351,740

     Amounts Delinquent                       $9,322,262                   $14,782,891                 $5,460,629

     Total Amount Written Off                                $2,228,195
     as Uncollectable Between
     4/01/08 and 9/30/08



From April 1, 2008 to September 30, 2008, the Office          $206,055,265. Administrative offsets have
of Financial Policy and Operations referred $1,209,153        resulted in additional collections of $5,737,877.
delinquent non-Federal claims to the U.S. Department          GSA also collected non-Federal claims using Pre-
of the Treasury for cross-servicing collection activities.    Authorized Debits (PADS) totaling $10,657.
Collections on non-Federal claims exceeded

                                                                                    April 1, 2008 – September 30, 2008 67
                                     Appendix VI–Reporting Requirements



The table below cross-references the reporting                                     in Senate Report No. 96-829 relative to the 1980
requirements prescribed by the Inspector General Act of                            Supplemental Appropriations and Rescission Bill and
1978, as amended, to the specific pages where they are                             the National Defense Authorization Act is also cross-
addressed. The information requested by the Congress                               referenced to the appropriate page of the report.

  Requirement                                                                                                                                       Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . . 2–28

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2–28

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
       Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(6) – List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

     Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . . . 2–28

     Section 5(a)(8) – Statistical Tables on Management Decisions on
       Questioned Costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44

     Section 5(a)(9) – Statistical Tables on Management Decisions on
       Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

     Section 5(a)(11) – Description and Explanation for Any Significant
       Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(12) – Information on Any Significant Management
       Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67

  National Defense Authorization Act

     Public Law 104-106, 5 U.S.C. app. 3, § 5 note . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60

     Public Law 110-181 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66


68 Semiannual Report to the Congress
                            Appendix VII–OIG Offices and Key Officials




Office of the Inspector General
Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
Deputy Inspector General (Acting), Robert C. Erickson . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
Executive Assistant for Management, Terrence S. Donahue . . . . . . . . . . . . . . . . . . . . . . . . (202) 219-0363
Special Assistant for Communications and Congressional Affairs, Dave Farley . . . . . . . . . . (202) 219-1062

Office of Counsel to the Inspector General
Counsel to the IG, Vacant (JC)
Deputy Counsel to the IG (Acting), Richard Levi (JCD). . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1932

Office of Internal Evaluation and Analysis
Director, Peter J. Coniglio (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 219-0088

Office of Audits
Assistant IG for Auditing (Acting), Regina O’Brien (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0374
Principal Deputy Assistant IG for Auditing (Acting), James Corcoran (JAD) . . . . . . . . . . . . . (215) 446-4846

Deputy Assistant Inspectors General for Auditing
Information Technology Audit Office, Gwendolyn A. McGowan (JA-T) . . . . . . . . . . . . . . . . (703) 308-1223
Real Property Audit Office, Rolando N. Goco (JA-R) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 219-0089
Finance & Administrative Audit Office, Jeffrey C. Womack (JA-F) . . . . . . . . . . . . . . . . . . . . (202) 501-0006
Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . . . . . . . . (703) 603-0189
Contract Audit Office, James M. Corcoran (JA-C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4840

Regional Inspectors General for Auditing
National Capital Region Field Office, Paul J. Malatino (JA-W) . . . . . . . . . . . . . . . . . . . . . . . (202) 708-5340
Northeast and Caribbean Field Office, Howard R. Schenker (JA-2) . . . . . . . . . . . . . . . . . . . (212) 264-8620
Mid-Atlantic Field Office, Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4840
Southeast Sunbelt Field Office, James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5125
Great Lakes Field Office, David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7781
The Heartland Field Office, John F. Walsh (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7052
Greater Southwest Field Office, Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2571
Pacific Rim Field Office, James P. Hayes (JA-9). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2744




                                                                                                     April 1, 2008 – September 30, 2008 69
                            Appendix VII–OIG Offices and Key Officials




  Office of Investigations
  Assistant IG for Investigations, Charles J. Augone (JI) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1397
  Deputy Assistant IG for Investigations, Gregory G. Rowe (JID) . . . . . . . . . . . . . . . . . . . . . . (202) 501-1397

  Special Agents in Charge (SAC)
  Mid-Atlantic Regional Office, SAC Randal A. Stewart (JI-W) . . . . . . . . . . . . . . . . . . . . . . . . (202) 252-0008
    Philadelphia Resident Office, Assistant SAC James E. Adams (JI-3) . . . . . . . . . . . . . . . . (215) 861-3550
  Northeast and Caribbean Regional Office, SAC Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . . (212) 264-7300
    Boston Resident Office, Assistant SAC Luis A. Hernandez (JI-1) . . . . . . . . . . . . . . . . . . . (617) 565-6820
  Southeast Regional Office, SAC Lee P. Quintyne (JI-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5126
    Miami Resident Office, SA Dietrich Bohmer (JI-4M). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (954) 356-6993
  Central Regional Office, SAC Stuart G. Berman (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7779
  Mid-West Regional Office, SAC John F. Kolze (JI-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7214
    Denver Resident Office, SA Christopher C. Hamblen (JI-8) . . . . . . . . . . . . . . . . . . . . . . . . (303) 236-5072
  Southwest Regional Office, SAC Paul W. Walton (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2589
  Western Regional Office, SAC Liza Ivins (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2755
    Los Angeles Resident Office, SA Tony Wu (JI-9L) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (949) 360-2214
  Northwest Regional Office, SAC Terry J. Pfeifer (JI-10) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (253) 931-7654

  Office of Administration
  Assistant IG for Administration, Carolyn Presley-Doss (JP) . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-4638
  Budget, Planning, and Financial Management Division, Director Kristin Sneed (JPB) . . . . . (202) 208-4198
  Facilities and Contracts Division, Director Marta M. Viera (JPFC) . . . . . . . . . . . . . . . . . . . . (202) 501-2887
  Human Resources Division, Director Cynthia Whatley (JPH) . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0360
  Information Technology Division, Director Michael McLaughlin (JPM) . . . . . . . . . . . . . . . . . (202) 219-2319




70 Semiannual Report to the Congress
Notes




        October 1, 2007 – March 31, 2008 71
                                       Notes




72 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
